          OFFICE OF INSPECTOR GENERAL

                                Catalyst for Improving the Environment


Evaluation Report



      Progress Made in Monitoring Ambient
      Air Toxics, But Further Improvements
      Can Increase Effectiveness
      Report No. 2005-P-00008

      March 2, 2005
Report Contributors:                                      Michael Young
                                                          Jeff Mittelstadt
                                                          Erica Hauck
                                                          James Hatfield
                                                          Rick Beusse




Abbreviations

AQS           Air Quality Subsystem
CAA           Clean Air Act
CFR           Code of Federal Regulations
EPA           Environmental Protection Agency
FY            Fiscal Year
GIS           Geographical Information System
MACT          Maximum Achievable Control Technology
NAAQS         National Ambient Air Quality Standards
NATA          National Air Toxics Assessment
NATTS         National Air Toxics Trends Stations
OAQPS         Office of Air Quality Planning and Standards
OAR           Office of Air and Radiation
OIG           Office of Inspector General
ORD           Office of Research and Development
PAH           Polynuclear Aromatic Hydrocarbons
POM           Polyclic Organic Matter
QAPP          Quality Assurance Project Plan
VOC           Volatile Organic Compound




Cover photo: Photograph of several types of air samplers used in ambient air toxics monitoring.
             Source: http://www.epa.gov/region1/lab/images/posters/mvc-001f.jpg
                        U.S. Environmental Protection Agency                                             2005-P-00008
                                                                                                         March 2, 2005
                        Office of Inspector General


                        At a Glance
                                                                        Catalyst for Improving the Environment

Why We Did This Review              Progress Made in Monitoring Ambient Air Toxics,
We performed this review to         But Further Improvements Can Increase Effectiveness
evaluate EPA’s progress in
establishing a national network      What We Found
and determine the status of
ambient air toxics monitoring
                                    The CAA does not require a national air toxics monitoring network, but EPA and
nationwide. A viable ambient
monitoring program to detect        State and local agencies have recognized such a network is needed. Since 2000,
areas of unhealthy air toxics       EPA has significantly increased its ambient air toxics monitoring efforts and
concentrations and to measure       funding to establish a national network and support State and local agencies’
national and local trends in        monitoring activities. EPA recently established 23 national sites to assess
those concentrations is key to      ambient air toxics trends, and State and local agencies have established over
assessing progress in reducing      300 fixed ambient air toxics monitoring stations nationwide. Further, in 2004
air toxics-related health risks.    EPA began awarding grants to State and local agencies to conduct short-term,
                                    local-scale monitoring projects.

Background
                                    Still, additional effort and improvement is needed to ensure that sufficient
The Clean Air Act (CAA)             ambient air toxics data is available to identify areas of unhealthy ambient air
identifies 188 air toxics.          toxics concentrations, identify national air toxics trends, and assess the
EPA defines air toxics as           effectiveness of air toxics reduction strategies. For example, there was little
“those pollutants that are          association between the location of State and local air toxics monitors and areas
known or suspected to cause         estimated to have high health risks from air toxics exposure. Also, we identified
cancer or other serious health      inconsistencies in the sampling frequencies and quality assurance measures for
effects or adverse
                                    the national trends sites. Key barriers to ambient air toxics monitoring included
environmental effects.” EPA’s       adequacy of funding and lack of methods to monitor certain air toxics.
goal is to reduce unacceptable
health risks from air toxics for
95 percent of the population by      What We Recommend
2020. Ambient monitoring is
important to assess progress        We recommend a number of actions to improve the effectiveness of ambient air
towards meeting this goal.          toxics monitoring. For example, with respect to monitoring conducted on a
                                    local-scale (i.e., certain State and local network monitors and EPA’s local project
For further information, contact    grant program), EPA should develop a strategy – in coordination with its State,
our Office of Congressional and     local, and tribal partners – for siting monitors in locations that are estimated to
Public Liaison at (202) 566-2391.   present the greatest health risks from exposure to air toxics. We also recommend
To view the full report,            several actions for improving the programmatic aspects of the national trends
click on the following link:        sites, particularly with respect to quality assurance, quality control, and data
www.epa.gov/oig/reports/2005/200    completeness. In addition, we recommend that EPA’s Office of Research and
50302-2005-P-00008.pdf              Development place greater emphasis on methods development for analyzing
                                    ambient air toxics concentrations. The Agency generally agreed with our draft
                                    report’s recommendations.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     W ASHINGT ON, D.C. 20460


                                                                                         OFFICE OF
                                                                                 IN S P E C T O R G E N E R A L




                                         March 2, 2005
MEMORANDUM


SUBJECT:       Progress Made in Monitoring Ambient Air Toxics,
               But Further Improvements Can Increase Effectiveness
               Report No. 2005-P-00008

FROM:          Kwai-Cheung Chan /s/
               Assistant Inspector General for Program Evaluation

TO:            Jeffrey R. Holmstead
               Assistant Administrator for Air and Radiation

               William H. Farland
               Acting Deputy Assistant Administrator for Science

This memorandum transmits the results of an Office of Inspector General (OIG) evaluation
regarding the Environmental Protection Agency’s (EPA’s) implementation of a national ambient
air toxics monitoring network. This report contains findings that should help EPA improve its
national monitoring network. Also, the report describes problems encountered in implementing a
national monitoring network and contains corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established procedures.

Action Required

In accordance with EPA Manual 2750, as the action official, you are required to provide this
Office with a written response within 90 days of the final report date. The response should
address all recommendations. For the corrective actions planned but not completed by the
response date, please describe the actions that are ongoing and provide a timetable for
completion. Where you disagree with a recommendation, please provide alternative actions for
addressing the findings reported.

We appreciate the efforts of EPA officials and staff in working with us to develop this report. If
you or your staff have any questions regarding this report, please contact me at (202) 566-0827 or
Rick Beusse, Director for Program Evaluation - Air Issues, at (919) 541-5747.
Attachment

cc:   Stephen D. Page, Director, Office of Air Quality Planning and Standards
      Thomas C. Curran, Deputy Director, Office of Air Quality Planning and Standards
      Pete Cosier, OAR Audit Followup Coordinator
      Cheryl Varkalis, ORD Audit Followup Coordinator
      Laurie Trinca, Audit Liaison, Office of Air Quality Planning and Standards




                                            -2-
                               Table of Contents
At a Glance

Chapters
     1        Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
                        Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
                        Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
                        Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               6
                        Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    7

     2        EPA’s National Air Toxics Monitoring Program Needs
              Greater Integration of Health Related Risk Data . . . . . . . . . . . . . . . . . . . .                             9

                        Information Used in Our Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  9
                        Monitors Not Located in 45 of the 50 Census Tracts With High
                             Estimated Cancer Risks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  10
                        Number of Air Toxics of Concern Were Not Monitored . . . . . . . . . . . .                               13
                        Coordination Between the National Strategy and State and Local
                            Monitoring Efforts Needs to Address High Risk Areas . . . . . . . . . .                              15
                        Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      16
                        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            16
                        Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . .                           17

     3        Local-scale Projects Could be Used to Fill Monitoring
              Gaps in High Risk Locations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    18

                        Local-scale Projects to Characterize Local Air Toxics
                             Concentrations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          18
                        Plans For Local-scale Projects Address
                             Stated Objectives of Program . . . . . . . . . . . . . . . . . . . . . . . . . .                    19
                        Improved Communication Between Regional Offices and
                             Headquarters Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 20
                        EPA Plans For Improving the Local-scale Projects . . . . . . . . . . . . .                               20
                        Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        21
                        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              21
                        Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . .                           22

     4        Greater Consistency in Operation of National Trends Sites Needed . .                                               23

                        Site Characteristics for the NATTS . . . . . . . . . . . . . . . . . . . . . . . . . .                   23
                        Progress Made, But Improvements Needed In Quality Assurance
                             for NATTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           24
                        Inconsistencies in Grant Awards . . . . . . . . . . . . . . . . . . . . . . . . . . .                    30
                        Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      31
                        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              31
                        Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . .                           32


                                                             i
5   Barriers to Implementing Effective Air Toxics Monitoring Networks . . . . . . . .                                     33

                     Insufficient Funding to Develop Comprehensive Monitoring . . . . . . .                               33
                     Methodological Weaknesses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              34
                     Stakeholders Concerned About Consistency of Data Reporting . . . .                                   37
                     State Officials Cited Lack of Health Benchmarks . . . . . . . . . . . . . . .                        37
                     Lack of a Statutory Requirement . . . . . . . . . . . . . . . . . . . . . . . . . . .                37
                     Higher Priority Placed on Other Pollutants . . . . . . . . . . . . . . . . . . . .                   38
                     Insufficient State and Local Agency Staff . . . . . . . . . . . . . . . . . . . . .                  38
                     Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    38
                     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          39
                     Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . .                       39


Appendices
    A      Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     40

    B      Statistical Correlation Between Monitoring and High Risk Areas . . . . .                                       44

    C      Cancer Risks Distribution and Location . . . . . . . . . . . . . . . . . . . . . . . . .                       45

    D      List of 33 Urban Air Toxics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            51

    E      Data Quality Indicators . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

    F      Summary of NATTS Characteristics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

    G      Research Activities for Key Urban Air Toxics
           Measurement Methodologies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

    H      Agency Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

    I      OIG Evaluation of Agency Response to Draft Report . . . . . . . . . . . . . . . . 66

    J      Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67




                                                         ii
                                 Chapter 1
                                 Introduction
Purpose

          The Environmental Protection Agency (EPA) defines air toxics as “those
          pollutants that are known or suspected to cause cancer or other serious health
          effects or adverse environmental effects.” Although a national network to
          monitor air quality for the six pollutants for which EPA has established National
          Ambient Air Quality Standards (NAAQS) has existed for many years as required
          by the Clean Air Act (CAA), a similar monitoring program for air toxics was not
          required by the Act for the 188 known air toxics. Historically, ambient air
          monitoring for air toxics has been primarily conducted at the State and local level
          based on State and local initiatives. In 1999, EPA began designing a national
          ambient air toxics monitoring network. Accordingly, we conducted this review to
          evaluate EPA’s progress in establishing a national network and the status of
          ambient air toxics monitoring nationwide. Our specific objectives were to
          determine:

          •   The status of EPA, State, and local agency efforts to monitor toxics in ambient
              air.

          •   The progress EPA, State, and local agencies have made in implementing a
              national air toxics ambient monitoring network that meets the stated
              objectives of the network.

          •   What barriers, if any, exist to the implementation of the national air toxics
              ambient monitoring network.

Background

          Over half of the 188 identified air toxics are known or suspected to cause cancer.
          Further, non-cancer health effects include damage to the immune, respiratory,
          neurological, and reproductive systems, and child developmental problems.
          People can be exposed to air toxics through the air, physical contact, or ingestion.

          EPA and State Programs to Address Air Toxics Pollution

          The 1990 CAA Amendments required a two-phased approach to reducing air
          toxics emissions and risks from large stationary sources of toxic air pollution
          (e.g., factories, refineries, and power plants). See Table 1.1 for descriptions and
          status of the two phases.



                                            1
Table 1.1:   Two Phases for Reducing Air Toxics Emissions and Risks from Large
             Stationary Sources
                                 Description                                   Status

 Phase 1     EPA was required to set technology-based                Completed in
             emissions standards, referred to as Maximum             February 2004
             Achievable Control Technology (MACT) standards,
             for major sources of Air Toxics that were to reflect,
             at a minimum, the level of emissions that the best
             performing 12 percent of sources in the category
             were achieving in practice.

 Phase 2     EPA is required to assess the risks to human            Issued 1 proposed residual
             health remaining from each source category 8            risk standard; currently
             years after the MACT was implemented (i.e.,             assessing residual risks for
             residual risk).                                         several MACT standards


EPA is also required to address emissions from area sources (i.e., smaller
stationary sources such as gas stations and dry cleaners) that emit air toxics that
pose the greatest threat to human health in urban areas.

The 1990 CAA Amendments also include a provision for the regulation of toxic
air pollution from motor vehicles and fuels. In 2001, EPA established a list of
21 Mobile Source Air Toxics. The Act specifies that EPA sets standards that
reflect the greatest degree of emission reduction for these toxics that is achievable
through the application of technology, considering availability and cost. EPA has
issued rules that reduce air toxics emissions from mobile sources, some of which
were directed specifically at air toxics, while others were put in place to primarily
address other pollutants but have also reduced air toxics (e.g., particulate matter
and hydrocarbon standards). Further, many communities have initiated local
programs to reduce air toxics emissions and health risks, including voluntary
measures and additional State or local restrictions on emissions.

Air Toxics Emissions and Risks

EPA develops nationwide estimates of air toxics emissions every 3 years and
records this data in the National Emissions Inventory. These emission inventories
are used to measure the air toxics program’s success in reducing emissions. The
inventories are often estimated based on emission factors and source activity data.
A prior Office of Inspector General (OIG) evaluation found that, although the
accuracy of the emission inventories is improving, further improvements are
needed. Nonetheless, this is the highest quality emissions data available, and EPA
uses the data for regulatory planning and support and for national, regional, and
State emission trends in publicly released reports.

These emissions inventories measure program effectiveness and are input into air
dispersion models to estimate ambient air toxics concentrations due to the large
number of air toxics, and the relatively few number of ambient air toxics
monitors. Estimates of ambient concentrations are in turn used to estimate human
exposure to air toxics and, ultimately, health risks to humans from this exposure.

                                       2
We recognize that additional research is needed to better understand the
relationship between ambient concentrations of air toxics and human exposure.
This relationship determines the effect of ambient concentrations in a particular
geographic area on potential health risks.

 EPA performs a national assessment of the risks to humans posed by air toxics,
 referred to as the National Air Toxics Assessment (NATA). The first such
 assessment was based on the 1996 emission inventory. EPA is planning to
 complete a second NATA based on 1999 emissions data in 2005. Limitations and
 uncertainties associated with NATA results are discussed in Appendix A.
 Figure 1.1 shows the distribution of excess lifetime cancer risks from air toxics
 exposure by county as estimated by the 1999 NATA.

 Figure 1.1: Distribution of Cancer Risk




Role of Ambient Monitoring in the Air Toxics Program

Title I of the CAA required EPA to establish NAAQS standards for pollutants of
national concern and develop a comprehensive network of air monitors to assess
compliance with these NAAQS.
Consequently, ambient monitoring       As noted in EPA’s Air Toxics Monitoring Strategy,
under the NAAQS program is key         ambient monitoring data is probably the most
to identifying areas where the         acceptable measure of air program progress.
public is exposed to unhealthy air

                                      3
and where control measures are needed to improve air quality. However, as
required by CAA Section 112, the primary focus of the air toxics program has been
on reducing air toxics emissions, and an ambient monitoring network was not
required. The success of the air toxics program has been measured by the amount
of emissions reductions achieved as opposed to measured changes in air quality.
EPA has used air dispersion modeling to estimate the impact of air toxics
emissions on ambient air concentrations of air toxics and, ultimately, on human
health.

EPA plans to increase the role of ambient monitoring in its overall air toxics
program with the development of a national air toxics monitoring program, as
outlined in its National Monitoring Strategy Air Toxics Component, Final Draft,
July 2004. In general, EPA plans to use ambient air toxics monitoring to support
the air toxics program’s efforts to reduce human exposure and health risks from air
toxics. The monitoring data provided by the ambient air toxics monitoring
program is intended to support four major objectives:

•   Establish trends and evaluate the effectiveness of air toxics emissions reduction
    strategies.

•   Characterize ambient concentrations (and deposition) in local areas. Air toxics
    originate from local sources and can concentrate in relatively small
    geographical areas, producing the greatest risks to human health.

•   Provide data to support, evaluate, and improve air quality models. Air quality
    models are used to develop emission control strategies, perform exposure
    assessments, and assess program effectiveness.

•   Provide data to support scientific studies to better understand the relationship
    between ambient air toxics concentrations, human exposure, and health effects
    from these exposures.

Development of the National Air Toxics Monitoring Program

The Office of Air and Radiation’s Office of Air Quality Planning and Standards
(OAQPS) outlined its plan for a national ambient air toxics monitoring network in
the Air Toxics Monitoring Concept Paper, issued February 29, 2000. This paper
outlined the role of monitoring in the National Air Toxics Program, the objectives
and principles of a national network, the strategic approach that would be taken in
this monitoring effort, and the rollout of the monitoring activities. The Concept
Paper was later revised and EPA outlined a national program and strategy in the
National Monitoring Strategy Air Toxics Component (Strategy). As discussed in
the Strategy, the national air toxics monitoring program is comprised of four
different monitoring efforts:




                                  4
         •    National Air Toxics Trends Stations (NATTS)1
         •    EPA funded local-scale projects to assess conditions at the local level
         •    Existing State and local program monitoring
         •    Persistent bio-accumulative toxics monitoring

         The monitoring program for persistent bio-accumulative toxics primarily consists
         of deposition monitoring, not ambient air monitoring. Several monitoring
         programs operated by various Federal agencies have been established to measure
         the presence of toxics in various media (e.g., water, fish tissue). These toxics
         impact human health through multiple exposure pathways, with exposure through
         ingestion generally presenting a greater health risk than exposure from inhalation.
         For example, mercury (which is emitted into the air by various stationary sources)
         primarily impacts human health when people consume fish that contain large
         amounts of methylmercury due to the process of bio-accumulation. Because of the
         unique nature of these toxics and the wide range of monitoring programs used to
         monitor the deposition of these toxics, we did not include these networks in our
         review. We discuss the other monitoring efforts below.

              NATTS Network

              The objective for the NATTS network is to provide long-term monitoring data
              for certain priority air toxics across representative areas of the country in order
              to establish overall trends for these pollutants. As of January 2004, EPA had
              established 23 NATTS in 22 cities.

              Local-scale Projects

              EPA’s initial ambient air toxics monitoring pilot studies disclosed that
              significant variations in pollutant concentrations occurred across a city and that
              these variations cannot be characterized by a single monitoring site. As a
              result, EPA decided that local-scale projects consisting of several monitors
              operated for a period of 1 to 2 years should be incorporated into the national air
              toxics monitoring strategy. Accordingly, in Fiscal Year (FY) 2004, EPA
              selected 16 local-scale project proposals (of the 49 submitted) for grant awards
              based on the available funding of $6.2 million.

              Existing State and Local Monitoring

              Many State and local agencies implemented ambient air toxics monitoring
              networks as part of their State or local air toxics programs and have operated
              these networks for several years. Since 1987, EPA has assisted State and local
              monitoring efforts by hiring a contractor for the laboratory analysis of air toxics
              samples collected by State and local agency monitors. In FYs 2003 and 2004,

1
    Stations can include several mo nitors.

                                              5
                     EPA re-directed $6.5 million in Section 105 grant funding (Federal funding
                     provided to State and local air pollution control agencies to support their air
                     pollution planning and control programs) from criteria pollutant monitoring to
                     air toxics monitoring.

                     Other Related Monitoring Efforts

                     In addition to air toxic-specific monitoring activities, several other monitoring
                     programs that are primarily intended to address other air pollution concerns
                     incorporate some aspects of air toxics monitoring. For example, EPA’s
                     Photochemical Assessment Monitoring Stations (PAMS) collect data on certain
                     volatile organic compound and carbonyl air toxics. In addition, EPA’s
                     IMPROVE2 and CASTNET3 networks collect data on certain air toxics metals.
                     Further, the results of some particulate matter monitoring is speciated (i.e., the
                     individual compounds comprising the particulate matter are analyzed) to
                     identify certain air toxics compounds.

                 Our analysis found that air toxics data collected from 542 air monitoring locations
                 were reported in EPA’s Air Quality Subsystem (AQS) for the period January 1,
                 2003, through September 15, 2004.

Scope and Methodology

                 To assess the overall status of air toxics monitoring efforts, we used Geographical
                 Information System (GIS) software to compare the locations of all air toxics
                 monitoring sites recorded in AQS to areas of the country with reportedly high air
                 toxics emissions or high estimated health risks from air toxics. To assess EPA’s
                 progress in establishing a national network, we compared information on national
                 trends site and local-scale project implementation to the objectives enumerated in
                 EPA’s strategic planning and guidance documents. We conducted interviews and
                 reviewed various studies, reports, funding, and strategic planning documents to
                 identify barriers to ambient air toxics monitoring.

                 We conducted our field work from January 2004 to September 2004 in accordance
                 with Government Auditing Standards, issued by the Comptroller General of the
                 United States. Appendix A describes our scope and methodology in more detail.
                 Our evaluation had various limitations (including data and generalization
                 limitations) that are discussed in detail in Appendix A.




         2
          Interagency M onitoring of PRO tected V isual Environm ents (IMPROV E) sites are located in rural areas,
primarily near national parks, are o perated by Departm ent of the Interior Fed eral La nd M anagers, and prima rily
monitor for haze.

         3
          Clean Air Status and Tre nds N etwork (CAST NE T) is the nation's primary sourc e for data on dry acidic
deposition and rural, ground-level ozone.

                                                          6
           Limitations

           We used the results of EPA’s 1999 NATA to identify areas with high risk from
           exposure to air toxics. There are limitations and uncertainties associated with
           EPA’s NATA assessment; thus the NATA results could identify areas as
           potentially high risk when they are not or vice versa. Also, ambient monitoring
           concentrations would not necessarily represent a person’s actual exposure to air
           toxics, since personal exposure is impacted by numerous variables, including the
           amount of time spent indoors, outdoors, or driving.

Results in Brief

           In the past few years, EPA has made progress in developing a national ambient air
           toxics monitoring program. EPA’s efforts have included developing a national
           ambient air toxics monitoring strategy, analyzing several years worth of previously
           collected State and local ambient air toxics data, establishing a national network of
           23 sites to measure long-term trends in national concentrations of certain high
           priority air toxics, and initiating short-term local-scale monitoring projects to
           characterize local air toxics concentrations. Still, additional steps can be taken to
           improve the effectiveness of EPA and State and local ambient air monitoring
           efforts.

           Many high risk areas do not have ambient air monitoring for air toxics. For
           example, 45 of the 50 census tracts with the highest estimated cancer risks from air
           toxics exposure – based on the 1999 NATA results – did not have ambient air
           toxics monitors. Although many of the counties that these census tracts were
           located in did have at least one ambient air toxics monitor, past monitoring efforts
           have shown that air toxics concentrations vary widely within a county and one
           particular monitor may not be representative of the ambient air concentrations in
           different neighborhoods throughout an urban area. EPA’s local-scale projects
           could be used to help obtain air monitoring coverage in these unmonitored high
           risk areas.

           With respect to its network for obtaining long-term trends data, EPA needs to
           ensure that the 23 national sites operate consistently and on the same sampling
           schedules in order to obtain sufficient data to develop long-term trends.

           Several barriers, many of which will require long-term attention to resolve, prevent
           the implementation of a comprehensive ambient monitoring program at both the
           national and State levels. Our interviews of over 50 officials from various
           organizations identified several barriers to the implementation of a comprehensive
           national monitoring network. Prominent among these barriers was a lack of
           funding, particularly at the State and local level, and a lack of ambient monitoring
           methods for key pollutants.

           We recommend that Assistant Administrator for the Office of Air and Radiation
           (OAR) integrate results from the NATA and other risk models in siting air toxics

                                             7
monitors to characterize local-scale air toxics concentrations. This includes
incorporating additional criteria into the local-scale project selections to locate
monitors in areas where NATA or other risk analyses indicate that the population
is at increased risk of health effects from exposure to air toxics. We also
recommend that the local-scale program periodically re-visit locations in order to
evaluate progress in reducing air toxics emissions. We recommend that OAR work
with the respective regional office program representatives to ensure that the
NATTS sufficiently address all program requirements, including the scale of
monitoring being conducted and the frequency of sampling. We also recommend
that OAR, prioritize the barriers to ambient air toxics monitoring and develop a
long-term strategy for addressing these barriers, and that the Assistant
Administrator, Office of Research and Development (ORD), emphasize air toxics
methods development for key air toxics in the ORD Air Toxics Research Strategy.

In responding to our draft report, the Agency stated that our draft report’s
recommendations generally align with their current program improvement efforts,
but were concerned that our draft report may not communicate the necessary
balance among program priorities, both within the air toxics program and across
other programs. We added language in the final report to address these concerns
and made other technical clarifications recommended by the Agency, as
appropriate.




                                 8
                                 Chapter 2
       EPA’s National Air Toxics Program Needs
     Greater Integration of Health Related Risk Data
          Our analysis to determine whether air toxics monitors were located in areas
          estimated to have high cancer risks from air toxics exposure found little association
          between the placement of air toxics monitors and census tracts estimated to have
          excessive levels of risks from air toxics. The majority of existing air toxics
          monitors were established and operated by State and local agencies and were not
          originally established as part of an EPA-administered national network. However,
          much of this monitoring data has been submitted to EPA. Given the large number
          of air toxics and the cost of monitoring, we believe EPA should incorporate a
          targeted approach to local-scale ambient air toxics monitoring in its national
          strategy, including placing monitors in those areas believed to present the greatest
          risks to the public. We found that 45 of the 50 areas with the highest estimated
          cancer risks from air toxics do not have ambient air toxics monitoring. Because
          many existing monitors are under the control of State and local air toxics programs,
          EPA will need to coordinate with State and local agencies to more effectively site
          these monitors.

Information Used in Our Analysis

          We used data from EPA’s NATA to identify the census tracts and counties with the
          highest levels of estimated cancer risks from air toxics exposure. It should be
          noted that there is considerable uncertainty regarding the relationship between
          emissions, ambient concentrations, and human exposure that may affect the
          identification of high risk areas (see Appendix A for a discussion of NATA
          limitations). Nonetheless, the NATA provided the best available data on high risk
          areas for purposes of this analysis. In addition to NATA, we reviewed EPA’s
          National Emissions Inventory to identify counties with the highest levels of air
          toxics emissions. In order to identify the location and type of air toxics monitoring
          conducted across the county, we identified all monitoring locations for which data
          was submitted to EPA’s AQS for the 21-month period January 1, 2003 through
          September 15, 2004. We compared these three sets of data to determine whether
          ambient air toxics monitoring was being conducted in areas estimated to have high
          cancer risks from air toxics exposure and in areas with high emissions of air toxics.
          Since EPA has not yet published its most recent NATA results, EPA and State and
          local monitoring agencies would not have been expected to site monitors based on
          this information. However, we believed it was important to use the most recent
          risk data in performing our analysis to provide the most benefit in developing
          future monitoring plans.

          The following figure shows the number of monitoring sites reporting data on any
          air toxics compound in EPA’s AQS.


                                            9
 Figure 2.1: Monitor Sites Reporting Air Toxics Data into AQS




Monitors Not Located in 45 of the 50 Census Tracts with High
Estimated Cancer Risks

               Our initial analysis focused on the extent to which ambient air monitoring occurred
               in the 50 census tracts estimated to have the greatest cumulative cancer risks from
               air toxics. We looked at census tract risk as opposed to county-wide risk because
               prior EPA monitoring studies showed that air toxics concentrations varied widely
               within counties and tend to be elevated in areas close to the sources of air toxics
               emissions. We found that ambient air toxics monitoring was conducted in only 5
               of the top 50 census tracts based on EPA’s most recent NATA data. The following
               table summarizes the results of our analysis and includes the population for the
               tracts we reviewed:


                Table 2.1: Monitors in 50 Census Tracts with Highest Cancer Risks
                                                  Census Tracts                  Population
                                                No.        Percent         No.           Percent
                Tracts with monitors              5             10%       10,552              7%
                 Tracts without monitors        45              90%      145,383              93%
                 Tracts in sample               50              100%     155,935          100%




                                                      10
           Although monitors were located in only 5 of the 50 census tracts, in many
           instances monitors were located in the county that included the census tract. The
           50 census tracts were located in 27 counties and 2 cities. Of these 29 counties and
           cities, 19 had air toxics monitors.4 However, given the wide variation in air toxics
           concentrations over a geographic area and the propensity for elevated
           concentrations near the sources of emissions, the concentrations measured at these
           monitors may not be representative of air toxics concentrations in the census tracts.

           We expanded our analysis to further explore the placement of monitors in higher
           risk census tracts by determining the number of monitors in the top 1, 5, 10, 20,
           and 25 percent of census tracts in terms of cumulative cancer risk. The following
           table shows the results of our analysis. The 99th percentile in the following table
           includes the top one percent of counties in terms of estimated cancer risks; the 95th
           percentile includes the top five percent of counties in terms of estimated cancer
           risks; and so on.

            Table 2.2: Monitors Located in High Risk Census Tracts

                                                                   Percent of
                                                   No. Tracts        Tracts       Population     Percent of
                  Sample              No. of         With             with            in            U.S.
                   Size               Tracts       Monitors         Monitors      Percentile     Population

              99th Percentile                648             23          3.6%        2,351,277         0.8%

              95th Percentile              3265              53          1.6%      13,186,452          4.7%

              90th Percentile              6528              80          1.2%      26,019,679          9.2%

              80th Percentile             13060            145           1.1%      52,646,787         18.7%

              75th Percentile             16328            177           1.1%      66,665,285         23.7%


           As shown in Table 2.2, air toxics monitoring is conducted in a small percentage of
           the census tracts containing the highest cancer risk from air toxics. For example,
           of the top 10 percent of high risk tracts (90th percentile), only 1.2 percent had an air
           toxics monitor located within the tract.

           Better Correlation Between Air Monitoring and Risks at the County
           Level, But Many High Risk Counties Without Monitoring

           After completing our initial analysis at the census tract level, we expanded our
           analysis to evaluate the correlation between the placement of monitors and the
           50 counties with the highest estimated cancer risks. When using a larger area of
           comparison (i.e., the county instead of the census tract), a stronger relationship was
           evident between the existence of a monitor and estimated cancer risks.
           Specifically, our expanded analysis found that for estimated cancer risks, 33 of the


4
    Excludes fine particulate m atter mo nitors that were also collecting air to xics da ta.

                                                      11
          525 counties with the highest estimated cancer risks monitored for air toxics. The
          following figure shows the 52 counties with the highest estimated cancer risks and
          whether the county contained a monitor.

           Figure 2.2: Highest Risk Counties




          We also analyzed different percentiles of counties with respect to risks. Table 2.3
          summarizes the results of this analysis.

           Table 2.3: Monitors in High Risk Counties

                                                                    Percent
                                                   No. of           Counties                       Percent of
                                   No of        Counties with         with          Population        U.S.
               Sample Size        Counties        Monitors          Monitors       in Percentile   Population

            99th percentile                32                 21          65.6%      36,157,497         12.9%

            95th percentile              158                  94          59.5%     117,078,706         41.6%

            90th percentile              316                165           52.2%     167,754,549         59.6%

            80th percentile              631                228           36.1%     214,517,588         76.2%

            75th percentile              790                240           30.4%     226,892,933         80.6%

            All counties                3141                297            9.5%     281,421,906        100.0%


          We also compared the location of monitors to counties with the highest emission
          densities. We found better correlation at the county level; however, there were still
          many high risk areas without air toxics monitors. For example, of the top
          10 percent of high risk counties (90th percentile), 52.2 percent had an air toxics


5
    Our analysis included 52 counties since 3 counties were tied for the 50 th highest risk.

                                                   12
                 monitor located within the county. These results were similar to the results for the
                 county risk comparison, as would be expected because those counties with the
                 highest estimated cancer risks would likely have the highest emission densities as
                 well.

                 Appendix B provides a more detailed discussion of the correlation among monitors
                 and high risk and high emission areas, and Appendix C provides county risk
                 estimates and monitor locations for States in all EPA Regions.

Number of Air Toxics of Concern Were Not Monitored

                 We also analyzed the extent to which air toxics identified as presenting the greatest
                 estimated lifetime excess cancer risks to the most people were monitored. Based
                 on the 1999 NATA results we identified the 10 air toxics presenting estimated
                 cancer risks greater than 1 in 100,000 to the most people (this is shown in
                 Figure 2.3). Similarly, we identified the 10 air toxics presenting estimated cancer
                 risks greater than 1 in 10,000 to the most people (this is shown in Figure 2.4).
                 EPA’s air toxics goal is that excess lifetime cancer risks be no greater than 1 in
                 1,000,000. The two categories included 14 different air toxics with 6 air toxics
                 appearing in both risk categories. No monitoring data were reported in AQS for
                 five of the air toxics listed in the following charts (coke oven emissions,6
                 hydrazine, POM,7 ethylene oxide, and benzidine). The same 10 pollutants do not
                 appear in both charts or in the same order since the number of people living in
                 areas with different ambient concentrations and corresponding health risks would
                 vary. For example, an air toxic with ambient concentrations that poses a 1 in
                 100,000 risk in areas with large populations, may not be present in those same
                 areas at the higher concentrations needed to present the greater risk of 1 in 10,000.




         6
           No com pounds o r classes of compo unds are unique to coke oven emissio ns, a listed hazardous air
pollutant which is actually a com plex m ix of che micals, many o f which are also emitted by othe r sourc es.
Consequently, AQS does not include data for "coke oven emissions."

         7
           The term POM (polyclic organic matter) defines a broad class of compounds which includes PAHs
(polynuclear arom atic hydrocarbons). PA Hs are the m ost commonly measured group of PO Ms. AQ S contains data
for selected PAHs (e.g., napthalene, acenaphthelene, etc.) which can be used as a surrogate for total POM.

                                                         13
Figure 2.3: Air Toxics Presenting Cancer Risks > 1 in 100,000




Figure 2.4: Air Toxics Presenting Cancer Risks > 1 in 10,000




As shown in the charts, formaldehyde and benzene exposed the greatest number of
people to risks of cancer greater than 1 in 100,000. Coke oven emissions,
formaldehyde, and chromium VI exposed the greatest number of people to risks of
cancer greater than 1 in 10,000.



                                     14
          Three of the five air toxics with no monitoring data reported in AQS appeared on
          both lists. The following table summarizes the three pollutants with no monitoring
          data and the population at risk for each of these pollutants:

           Table 2.4: High Risk Air Toxics with No Monitors

                                 Population Exposed to        Population Exposed to
                Air Toxics         > 1 in 10,000 Risk          > 1 in 100,000 Risk

            Coke Oven                           650,444                   9,740,590

            Hydrazine                              70,664                 1,064,503

            POM                                    64,103                 4,734,276

                  Totals                        886,115                 135,237,126




          The 14 air toxics which present the greatest cancer risks to the largest numbers of
          population also included two air toxics (1-3 butadiene and chromium VI) for which
          EPA has not yet established approved routine monitoring methods.

Coordination Between the National Strategy and State and Local
Monitoring Efforts Needs to Address High Risk Areas

          State and local officials with monitoring jurisdiction for the 50 census tracts we
          reviewed were generally aware that the census tracts we had selected were likely
          high risk areas. In a few instances, State and local officials were surprised that the
          census tract showed up as a high risk area, and in one case State officials indicated
          that a source operating in that census tract in 1999 – the year that the risk estimates
          were based on – was no longer operating in that census tract.

          The majority of these State and local agency officials told us that they did not
          consider the current level of ambient air toxics monitoring in their areas sufficient.
          These officials outlined several barriers to implementing more comprehensive
          networks, including a lack of funding, routine monitoring methodologies, and
          benchmarks against which to compare ambient concentrations. These barriers are
          discussed in Chapter 5.

          Many State and local agencies have implemented and operated ambient air toxics
          monitoring activities in accordance with their State or local program requirements,
          not Federal (EPA) requirements. Beginning in FY 2003, EPA re-allocated section
          105 grant funds to assist these efforts, primarily to help fund the entering of this
          data into EPA’s AQS database. However, EPA has no statutory authority to
          mandate where these monitors are located. Accordingly, EPA must work
          cooperatively with State and local agencies to get monitors placed in areas where
          public health risks from air toxics exposures appear greatest. EPA has worked
          cooperatively with State and local agencies through the Standing Air Monitoring


                                              15
              Working Group to develop its air toxics monitoring strategy. EPA should continue
              to work with States, local agencies, and tribes to develop risk-based approaches to
              siting local-scale monitors.

              EPA Region 4 has initiated such a risk-based approach to identifying counties for
              potential air toxics ambient monitoring activities. Region 4 uses a combination of
              NATA results, Centers for Disease Control health information, Toxics Release
              Inventory data, and U.S. census data to rank the relative risks for the counties in its
              region. The Director of one local agency told us that Region 4's risk program plus
              technical and equipment support from the region were a contributing factor to the
              local agency being able to establish ambient air toxics monitors in a high risk
              county. This local official also described tangible benefits that they obtained from
              their monitoring project. He told us that, as a direct result of the monitoring data
              they collected, they were able to enter into enforceable agreements with local
              industries to reduce their emissions. In addition, their local-scale8 monitoring
              enabled them to identify potential under-reporting of fugitive emissions from some
              of the large stationary sources in their county.

Conclusions

              We found gaps in existing monitor coverage with respect to areas with high
              estimated cancer risks and with respect to certain air toxics that are believed to
              present the largest risks to the most people. In order to better inform the public of
              potential health risks from air toxics and to measure progress in reducing public
              health risks, these gaps in monitoring coverage should be addressed. Also, EPA
              must do more to understand the link between ambient concentrations of air toxics
              and human exposure. While we recognize its limitations, EPA’s NATA results
              may be used to better inform the siting of air toxics monitors. Further, once
              ambient air toxics data is collected, this data can be used to validate air quality
              models and improve risk assessments.

Recommendations
              In order to better inform the public of potential health risks and to measure
              progress in reducing public health risks, we recommend the Assistant
              Administrator, Office of Air and Radiation:

              2-1       Develop a strategy in coordination with State, local, and tribal partners to
                        increase siting of local-scale monitors in locations that are estimated to
                        present the greatest health risks from exposure to air toxics and are
                        representative of different sources of air toxics emissions. This strategy
                        would apply to State and local agency and tribal fixed monitors as well as
                        the local-scale projects that EPA awards. The Strategy would not apply to



     8
         Monitoring to chara cterize local con centrations of air toxics.

                                                        16
                the NATTS which are designed to measure long-term trends in ambient
                concentrations.

         2-2    Develop a method for identifying and prioritizing high risk areas for local-
                scale monitoring which uses various air toxics-related information and
                available health data (e.g., NATA results, emissions data, population data,
                etc.) that could be used by EPA, State and local agencies, and tribes to
                implement the strategy developed in recommendation 2-1.

         2-3    Develop a strategy to better understand the relationship between ambient
                concentrations and the health risks associated with human exposure to air
                toxics. This strategy should include validation of results of air quality
                assessments that utilize human exposure modeling (e.g., NATA) and
                further exposure and health studies.

         Recommendations regarding other issues discussed in this chapter (for example,
         monitoring methodologies) are included in later chapters.

Agency Comments and OIG Evaluation
         The Agency generally agreed with our recommendations in Chapter 2. OAR noted
         that our draft report did not address the relationship of actual personal exposures to
         ambient concentrations and health risks, and suggested we add a recommendation
         to improve the understanding of this relationship, which we did. OAR also noted
         that NATA, which was used to identify areas with the greatest estimated health
         risks, includes the use of human exposure modeling to estimate actual exposures to
         air toxics, but also noted that there are uncertainties and limitations in the NATA
         exposure assessment. OAR also suggested we improve our Recommendation 2-2
         by including a mechanism for evaluating whether identified locations truly are
         areas with elevated risks associated with exposure to air toxics.

         We made changes to the report to further clarify that personal exposure to air
         toxics is not represented by ambient monitoring, and we added Recommendation
         2-3 to address the need for a better understanding of the relationship of actual
         personal exposures to ambient concentrations and health risks. While our draft
         report already included a detailed discussion of the uncertainties and limitations of
         the NATA in Appendix A, we have further emphasized this point in Chapter 2.
         Notwithstanding these limitations, the NATA risk estimates were the best available
         data for identifying where air toxics risks are highest. EPA has made a
         commitment to ambient monitoring as an integral part of its air toxics program,
         and we agree that ambient monitoring should be conducted in areas that pose the
         greatest risks to the public. We also agree that ambient monitoring should be used
         in conjunction with other characterization tools. The full text of the Agency’s
         response to the draft report is attached as Appendix H.




                                           17
                                   Chapter 3
        Local-scale Projects Could Be Used to Fill
         Monitoring Gaps in High Risk Locations
          The local-scale projects will meet the stated objectives of the strategy if
          implemented as they are proposed. EPA can further increase the usefulness of
          these projects by addressing high risk areas where previous monitoring has not
          occurred and by revisiting previously monitored areas to evaluate the success of air
          toxics reduction strategies. The local-scale projects allow for flexibility and are
          intended to identify potential air toxics problems at the local level. EPA started
          this component of its national program in FY 2004 by selecting 16 proposals –
          funded with Section 103 grant funds – to conduct local-scale ambient air toxics
          monitoring projects. The 16 projects selected, if implemented as planned, should
          meet the program objectives established by EPA for these projects. However, we
          believe these projects can provide additional public health benefits by monitoring
          in areas estimated to have excessive air toxics-related health risks. Further, these
          projects could be used to re-visit previously monitored areas to evaluate the
          success of air toxics reduction strategies.

Local-scale Projects to Characterize Local Air Toxics Concentrations

          The local-scale studies are intended to provide monitoring data to better understand
          air toxics concentration gradients in urban areas. According to the air toxics
          monitoring strategy, the primary local-scale objective is to characterize ambient
          concentrations in local communities. As outlined in its Strategy, EPA established
          five specific goals for these projects, listed here in Table 3.1.

          Table 3.1: Five Specific Goals for Local-scale Projects

                                                  Desired Characteristic

             1    Develop a baseline reference for air quality concentrations that can be used to measure
                  the progress of a planned emissions reduction strategy program.

             2    Characterize spatial differences in pollutant concentrations that are driven by factors
                  unique to particular communities (e.g., roadways, airports, unique stationary sources).

             3    Characterize pollutants that are not ubiquitous (e.g., hexavalent chromium), yet remain
                  a problem on a national scale.

             4    Evaluate air quality models that are used for exposure assessments.

             5    Test the application of available advanced technologies that can be operated on a
                  routine basis.



          EPA awarded grants funds to State and local agencies to conduct local-scale
          projects based on a competitive award process. EPA evaluated the proposals
          primarily on how well they addressed the five main objectives for the program.



                                                18
          EPA received 49 proposals for these projects and selected 16 projects for a total
          grant award of $6.141 million.

Plans for Local-scale Projects Address Stated Objectives of Program

          We reviewed the workplans for the 16 local-scale projects awarded by EPA to
          determine whether these workplans indicated that the projects, if implemented as
          planned, would meet the five specific goals for the program as discussed above.
          The plans for the selected local-scale monitoring projects generally indicated that
          these projects would meet the objectives of the program if implemented as
          planned. The results of our review for each of the five main objectives of the
          local-scale projects are discussed below.

          Monitoring Data to be Used to Evaluate Emission Reductions
          Strategies

          All of the 16 selected projects indicated in their project proposals that they plan to
          either (1) pre-monitor for a planned emission reduction project, (2) post-monitor to
          evaluate an implemented emission reduction project, or (3) correlate results with a
          community effort characterizing air toxics risks. Accordingly, each of the awarded
          projects, as planned, appears to meet the goal of establishing a baseline in
          evaluating emission reduction strategies.

          Projects Plan to Characterize Spatial Differences

          All of the accepted local-scale project proposals indicated that they will
          characterize spatial differences in ambient concentrations influenced by different
          sources unique to their community. Spatial difference refers to changes in air
          toxics concentrations from location to location. Unique sources included airports
          and industrial, mobile, mixed-use, port, stationary, and commercial sources.

          Collectively, the Project Plans Indicated Monitoring Will Be Used to
          Characterize Non-ubiquitous Pollutants

          The accepted project proposals indicate that many of the projects will monitor for
          these pollutants. This objective was adequately addressed in the selection of the
          first round of local-scale projects. One of the objectives for the local-scale projects
          is to characterize pollutants that may not be ubiquitous (e.g., hexavalent
          chromium), yet remain a problem on a national scale. This could include
          characterization of wood smoke problems that occur in many regions of the
          country (e.g., in the Northwest, upper Midwest, and Northeast).

          All But One Project Plan Indicated Data Will Be Used to Evaluate
          Air Quality Models

          All but one of the accepted local-scale project proposals indicated that the
          monitoring data will be used to facilitate the evaluation of air quality models.

                                            19
          EPA uses air dispersion models to estimate air toxics ambient concentrations.
          Accordingly, EPA plans to use the local-scale monitoring projects to support and
          evaluate modeling of ambient air conditions in other locations that have similar
          sources. Thus, EPA tried to include as many different types of emissions sources
          and scenarios as possible in the final projects selected. This aspect is important
          because air quality models require supporting observations to build confidence in
          model results. This information can also direct needed improvement in underlying
          model formulations or related emission inventories. One proposal qualified its
          intent to meet this objective by stating that the applicant would be willing to
          consider facilitating the evaluation of air quality models with EPA's input and if it
          is within the scope and budget of the project.

          Most Projects Will Use Advanced Technologies

          EPA wants the projects to include one or more non-routine advanced technologies
          that have strong potential for routine operations for State/local agencies and tribes.
          This criterion refers to the consideration of different types of monitoring and
          emerging continuous technologies. The intent is to encourage fresh uses of
          existing technologies to address gaps in continuous methods, given that virtually
          all routine toxics measurements use separate sampling and analysis approaches
          (i.e., sampling collection followed by laboratory analysis). However, this is not
          intended to serve as a vehicle for new methods development or research that is
          beyond the intended scope of resources. All but one accepted local-scale project
          proposal met the criterion of inclusion of one or more non-routine advanced
          technologies.

Improved Communication Between Regional Offices and
Headquarters Needed

          We contacted all 10 regional offices to determine the status of the project awards.
          We confirmed that at least 14 of the 16 grants had been awarded as of November 9,
          2004, and that at least 1 of the remaining 2 grants had not been awarded, even
          though the project monitoring period was scheduled to start on October 1, 2004.
          According to OAQPS officials, communications between EPA’s OAQPS and the
          Regional offices concerning the awards for the local-scale projects have improved.
          Further, they told us that 15 of the 16 grants have now been awarded and the final
          grant was scheduled to be awarded in December 2004.

EPA Plans for Improving the Local-scale Projects

          EPA plans to make changes to the program based on the lessons they learned from
          the first year of awarding competitive grants for local-scale projects. EPA officials
          told us that the competitive process for the first year of the program tended to favor
          State and local agencies that had experience with ambient air toxics monitoring. In
          order to address this problem, a second category of projects – called Community
          Monitoring and Capacity Building – will be awarded to build the capacity for
          ambient air toxics monitoring in State and local agencies that do not have

                                            20
         established monitoring programs. We also discussed with EPA officials the
         possibility of using local-scale projects to obtain current data for previously
         monitored locations in order to evaluate the effectiveness of air toxics emissions
         reduction programs. According to EPA officials any effort to target funding to
         specific areas will include deliberation with State and local agencies and would
         serve to supplement the local-scale monitoring projects. As discussed in Chapter
         2, ambient monitoring was not conducted in 45 of 50 census tracts estimated to
         have the highest excess lifetime cancer risks from air toxics exposure. We noted
         that 4 of the 29 counties and cities where these 45 census tracts were located were
         awarded EPA grant funds for local scale monitoring projects.

         Another suggestion provided by EPA officials to help improve local-scale projects
         was to attempt to tie community monitoring efforts to concurrent exposure and
         health studies. EPA lacks data on how ambient concentrations relate to actual
         human exposures and ultimately health impacts. Although conducting exposure
         and health studies is presently beyond the resource capabilities of the air toxics
         monitoring program, it may be possible to encourage collaboration with other
         organizations by including this as a potential criterion for future local-scale awards.

Conclusions

         Local-scale projects are an essential part of EPA’s efforts to characterize ambient
         air toxics concentrations in local communities and are intended to allow for
         flexibility in addressing a wide-range of air toxics issues at the local level. EPA
         has selected and approved funding for 16 local-scale projects. These projects, if
         implemented as planned, should address the objectives established by EPA for this
         component of the program. We believe this component of EPA’s program could
         provide additional benefit by addressing the lack of monitoring in areas estimated
         to have excessive human health risks due to air toxics exposure and to evaluate the
         success of air toxics reduction strategies at the local level. In FY 2005, EPA plans
         to award grants to a second category of projects comprised of State and local
         agencies that do not have established air toxics monitoring programs and wants to
         set aside a portion of grant funds to be used to address certain areas and issues. We
         believe these plans provide an excellent opportunity to enhance EPA’s air toxics
         monitoring program by addressing areas with estimated high risk or emissions that
         may otherwise go unmonitored.

Recommendations

         In order to increase the number of local-scale monitoring projects that address
         areas with high health risks from air toxics exposure, we recommend that the
         Assistant Administrator, Office of Air and Radiation:

         3-1    Develop a communication strategy to inform State and local officials of
                areas that may present high health risks from exposure to air toxics and of
                the opportunity to obtain funding for monitoring in these areas through
                EPA’s local-scale monitoring program.

                                           21
         3-2    In order to encourage development and refinement of new methodologies
                retain the project selection criterion for employing non-routine, advanced
                monitoring technologies.

         3-3    Add an additional criterion to the existing local-scale project selection
                criteria to:

                a. Address areas where NATA or other risk analyses indicate that the
                   population is at increased risk of health effects from exposure to air
                   toxics (relative to other areas). This could also include encouraging
                   proposals for local-scale monitoring projects with co-located exposure
                   and health studies by rewarding them with extra points, but not
                   penalizing projects that do not include such collaborations.

                b. Periodically re-visit previously monitored locations in order to evaluate
                   progress in reducing air toxics emissions.

         3-4    Coordinate with Regional Offices to ensure that information on grant award
                status is timely submitted to the appropriate OAQPS officials.

Agency Comments and OIG Evaluation
         The Agency generally agreed with the recommendations in chapter 3. With respect
         to recommendation 3-1, the Agency stated that OAR works directly with State,
         local, and tribal entities and through Regional contacts to help identify and
         characterize local scale risk issues. The Agency indicated that it has developed a
         website addressing high risk areas (NATA) and a website where the solicitations
         for Community Scale Monitoring project proposals are posted. The Agency also
         stated that the Program Office communicates new solicitations to the Regional
         Offices, Regional Planning Organizations, and to the State and Territorial Air
         Pollution Program Administrators and the Association of Local Air Pollution
         Control Officials, which in turn communicate the solicitations to the State, local,
         and tribal entities. We realize that these websites and tools exist and commend
         EPA for developing them. However, we continue to believe that an extra step
         should be taken to contact the appropriate officials in areas identified with
         potential for high air toxics risks to ensure that they are aware of the risks, EPA’s
         websites, and the local-scale project funding opportunity. The full text of the
         Agency’s response to the draft report is attached as Appendix H.




                                          22
                                    Chapter 4
            Greater Consistency in Operation of
               National Trends Sites Needed
          EPA has established a comprehensive oversight process for reviewing the
          operation of its NATTS. EPA’s oversight and our review identified
          inconsistencies in the operation of the NATTS. For example, all State agencies
          operating these sites did not prepare quality assurance plans that adequately
          address the requirements of the network, and preliminary data analysis indicated
          that not all sites were meeting data completeness objectives or timely submitting
          their monitoring data to EPA. Further, the grants awarded to the State and local
          agencies for operating these sites did not contain the same requirements and
          commitments for each site. Eliminating inconsistencies in the operation of these
          sites will help ensure that the network meets its objective of producing data that
          can be used to reliably assess long-term national trends in air toxics
          concentrations.

Site Characteristics for the NATTS
          The NATTS were designed to estimate annual average concentrations of certain
          high priority air toxics in order to assess long-term trends in air quality. To
          accomplish this goal, the National Air Monitoring Strategy Air Toxics Component
          Draft (Strategy) identified nine desired site characteristics for the NATTS network,
          shown in Table 4.1 below.

          Table 4.1: Nine Desired Characteristics for NATTS

                                                   Desired Characteristic

             1   The network should include neighborhood-oriented sites that are reflective of general
                 population exposures.

             2   The network should include rural sites that represent regional background and transport
                 concentrations.

             3   All sites should comply with established physical siting protocols.

             4   The network should provide good geographic coverage and represent different
                 climatological regimes.

             5   The network should include appropriate numbers of sites with influences by specific
                 emission sources.

             6   All sites should monitor for a common sets of air toxics.

             7   All sites should monitor on the same days/sampling schedule (e.g., 24-hr averages every
                 6th day) throughout the year.

             8   All sites should use consistent sampling and analytical methods, laboratory procedures,
                 and quality assurance protocols.

             9   All sites should meet the data completeness requirements.




                                                 23
                 EPA has established several quality assurance and oversight procedures to ensure
                 that these characteristic are met. In accordance with EPA requirements for
                 ensuring that environmental data are useful to decision makers, each State and
                 local agency operating a NATTS site was required to develop a Quality Assurance
                 Project Plan (QAPP). The QAPPs were to be completed prior to the initiation of
                 monitoring activities, and should address all aspects of planning, implementation,
                 assessment, and reporting. In the case of the NATTS, the QAPPs should address
                 the nine site characteristics established by EPA. Further, OAQPS plans to conduct
                 12 technical systems audits per year which check siting, assess the competence of
                 site operators and laboratories, and assess the operation of field and laboratory
                 equipment and staff. EPA plans to further evaluate laboratory performance by
                 sending out performance samples to the laboratories. Additionally, OAQPS plans
                 to conduct a detailed assessment of data quality after the first 3 years of NATTS
                 monitoring.

                 In order to assess EPA’s progress in establishing the NATTS network, we assessed
                 whether the QAPP for each NATTS site addressed the nine site characteristics for
                 the program. The NATTS were selected by EPA and are operated by State and
                 local agencies with grant funding from EPA. We obtained and reviewed the
                 QAPPs for 21 of the 23 NATTS sites.9 We did not verify actual activities at the
                 sites with on-site audits. However, we reviewed the results of technical audits and
                 data completeness assessments completed by EPA and its contractors. The results
                 of our review are discussed in the following sections.

Progress Made, But Improvements Needed in Quality Assurance for
NATTS
                 1. Not All QAPPs Addressed Neighborhood-Oriented Siting When Required

                 Although the QAPPs are supposed to address the scale of monitoring, not all of
                 them do. The QAPPs for six of the urban sites intended to monitor on the
                 neighborhood scale did not indicate whether the monitor was sited as a
                 neighborhood scale monitor. Sixteen of the 23 NATTS are located in urban areas
                 and should reflect neighborhood-oriented siting. The “scale” of monitoring refers
                 to an area that has relatively homogenous air concentrations for the pollutant of
                 interest. Neighborhood scale monitoring refers to monitoring an area that has
                 relatively uniform land use and dimensions between 0.5 and 4.0 kilometers. The
                 neighborhood scale of monitoring is generally considered representative of
                 population exposure. In addition, the QAPPs for 2 of these 16 sites were not
                 provided to us; thus, we were unable to determine whether they addressed the
                 siting of the monitor. Three of the seven rural sites will also monitor on the
                 neighborhood scale to provide comparison between rural and urban monitoring
                 results.




         9
          Tw o State agen cies responsible for operating N AT TS did no t provide us w ith the QAP Ps for their
respective NATTS.

                                                          24
2. Only Two QAPPs for Rural Sites Indicate Regional Scale
   Monitoring

EPA intended for some of the rural NATTS to monitor on the regional scale, but
only two QAPPs mention using this scale. Regional scale monitoring covers an
area of homogeneous geography ranging from tens to hundreds of kilometers. In
order to collect data on regional air toxics concentrations, EPA selected seven rural
sites. Three agencies operating these sites decided to monitor on the neighborhood
scale. Two of the four remaining sites indicated in their QAPPs that they will be
monitoring on a regional scale in order to represent regional background and
transport concentrations. The other two sites did not address whether or not the
monitor was sited as a regional scale monitor in their QAPPs. The failure to
address the scale of monitoring in the QAPP does not necessarily mean that the
monitor was inappropriately sited.

3. Procedures in Place to Assess Compliance with Physical Siting
   Protocols

It was beyond the scope of our review to determine whether the NATTS were
complying with siting protocols. However, EPA has developed an adequate
process to address the physical siting of the NATTS. In addition to meeting the
neighborhood or regional scale siting requirements discussed above, all sites must
comply with the physical siting criteria described in Appendix E of 40 Code of
Federal Regulations (CFR) 58. EPA has implemented a process to determine
whether sites comply with established physical siting protocols. EPA plans to have
a contractor perform 12 site audits per year which will include evaluating
compliance with physical siting protocols. Thus, each site will be audited every
2 years. As of July 6, 2004, four audits had been completed. Each of the four site
audits concluded that the monitoring sites conformed to Appendix E of 40 CFR 58
for siting requirements.
4. Sites Include Diverse Geographic Coverage

The location of the NATTS represent diverse geographic areas and climates. The
air toxics monitoring strategy calls for good geographic coverage and
representation of different climatological regimes. The NATTS provide good
geographic coverage with at least one site in each EPA region. The NATTS also
provide a good representation and cross-section of different climatological regimes
in the United States. Figure 4.1 shows the location of the 23 NATTS (2 sites are
located in Tampa, Florida).




                                 25
Figure 4.1: Location of NATTS




        5.    Guidance Needs to be Clarified to Explain Meaning of
              Specific Emission Sources

        EPA’s program guidance was not clear for the characteristic to: “Include
        appropriate numbers of sites with influences by specific emission sources (mobile
        and stationary).” Agency officials interviewed had mixed views concerning how
        this characteristic should be interpreted. One interpretation was that the statement
        referred to monitoring for air toxics from specific emission sources at different
        sites. This would more correctly describe the local-scale projects meant to
        characterize spatial differences in pollutant concentrations driven by factors such
        as proximity to particular sources unique to particular communities. Another
        interpretation was that monitoring sites were to be located where they will not be
        unduly influenced by only one source category. Instead a site should monitor air
        toxics from multiple source types in order to assess national trends in air toxics
        concentrations.




                                         26
6. Most Sites Plan to Monitor for the Majority of the Core Air Toxics

Most sites plan to monitor for a majority of the 19 “core” air toxics established as
priorities for the NATTS network. EPA’s Urban Air Toxics Program identified
33 high-priority urban air toxics. From these 33 air toxics EPA developed a list of
19 “core” air toxics representing the pollutants for which EPA eventually wants to
develop trends information (see
Table 4.2). However, because of             Table 4.2: Core Air Toxics
limitations in available methodologies,
                                                 Required                Desired
EPA decided that at a minimum, in               Monitoring             Monitoring
starting the network, each of the
NATTS should monitor for at least            1,3-butadiene      trichloroethylene
6 of these 19 pollutants. These six          acrolein           tetrachloroethylene
pollutants are considered national air
toxics “drivers” (i.e., pollutants of        arsenic            beryllium
concern in all areas of the country).        formaldehyde       nickel
Appendix D lists the 33 high-priority
urban air toxics.                            benzene            cadmium

                                             hexavalent       acetaldehyde
Monitoring for all 6 required pollutants     chromium *
                                                               1,2-dichloropropene
is planned for 8 sites. Monitoring for 5
of the 6 required pollutants, excluding                        carbon tetrachloride
acrolein, is planned at 12 of the 13                           lead
remaining sites. In discussing these
omissions with OAQPS officials, they                           chloroform
told us that an approved methodology                           manganese
had not been developed for acrolein, but
                                                               methylene chloride
they had hoped to have an approved
routine methodology for acrolein by                            vinyl chloride
January 2005. The availability of
methodologies for monitoring air toxics * Replaced total chromium in January 2005
is discussed in more detail in Chapter 5.
In addition, monitoring for 18 of the 19 target pollutants (excluding acrolein) is
planned for 17 of the 21 sites for which we reviewed QAPPs. Monitoring of all
33 high-priority air toxics (including acrolein) is planned at 4 sites.

7.   Not All Sites Monitoring on the Same Schedule to
     Ensure Consistency

Not all sites were using the same monitoring schedules. In order to produce
consistent and comparable data across the NATTS network, all sites are required to
monitor on the same days and sampling schedules throughout the year. The
NATTS are to sample for one 24-hour period every 6 days in accordance with a
monitoring schedule prepared by EPA. The QAPPs for 14 NATTS indicated that
they will monitor on the 1-in-6 day sampling schedule for each pollutant as
required by EPA. However, the QAPPs for 5 sites indicated that the monitoring
sites will not employ the required 1-in-6 day sampling schedule. Two QAPPs did
not address the sampling schedule.


                                  27
8.     Need for More Consistency in Quality Assurance

Improvements are needed in network implementation in three areas – sampling and
analytical methods, laboratory procedures, and quality assurance protocols – to
ensure that consistency in operation of the NATTS is achieved. As with any
monitoring network, the NATTS should employ consistent sampling, analytical
methods, laboratory procedures, and quality assurance protocols. Appendix E
provides a definition of EPA’s data quality indicators for environmental
monitoring data and describes how the NATTS network addresses these indicators.

       Improvements Needed in Sampling and Analytical Methods

       The QAPPs generally indicated that the operating agencies planned to use
       the required sampling and analytical methods outlined in the Strategy.
       However, our review of the model QAPP prepared by OAQPS showed that
       the Agency referenced the wrong methods for sampling certain pollutants.
       For example, the Model QAPP referenced method TO-15 for acceptance
       criteria for filter design specifications for carbonyls. TO-15 is a sampling
       and analytical method for measuring volatile organic compound (VOC)
       concentrations in air. Also, changes in some of the approved
       methodologies were made since the model QAPP was developed. EPA
       plans to have each NATTS site audited once every 2 years; this audit will
       include a review of the sampling used for each NATTS site and the
       analytical methods used by each laboratory to analyze the sample results.
       This audit process should help ensure consistency in sampling and
       analytical methodologies.

       Improvements Needed in Laboratory Procedures

       EPA’s initial laboratory audits have identified problems with laboratory
       quality assurance and control. The Agency plans to have a contractor
       perform audits on each analytical laboratory every two years. The results of
       eight completed laboratory audits showed that the majority of findings
       pertained to the quality assurance and quality control procedures of the
       laboratories. Findings included such issues as record keeping,
       administration, and problems related to the use of performance evaluation
       and blind samples. Some laboratories have already responded to the
       recommendations provided in the audit report, indicating that they will
       address the recommendations.
       EPA has implemented or plans to implement procedures to ensure the
       quality of the NATTS monitoring data. In addition to the laboratory audits
       discussed above, EPA plans to use quarterly proficiency tests to assess
       laboratory procedures and analysis. A proficiency test is a type of
       assessment in which a sample of known composition is provided to the
       analyst, who does not know the composition, to test whether the laboratory
       can produce analytical results within the specified acceptance criteria. EPA
       also plans to implement calibration cylinder certification procedures. EPA

                                28
                         plans to include the results of the audits in an annual Quality Assurance
                         Report.

                         Improvements Needed in Quality Assurance Protocols

                         Not all sites had incorporated the data quality input and output parameters
                         into their quality assurance plans that were needed to achieve the data
                         quality objectives EPA established for the NATTS network. Data quality
                         objectives are set to ensure that data meets the intended uses of decision
                         makers. EPA established certain input parameters and output parameters
                         for the six required pollutants. These input and output parameters represent
                         the specific data requirements that need to be met in order to meet the data
                         quality objectives. Examples of input parameters include target error rates,
                         sampling rates (1 in every 6 days), and completeness criteria. The QAPPs
                         did not list the input parameters for 9 of the sites and did not list the output
                         parameters for 10 of the sites.

                         EPA has plans for addressing whether data quality requirements are met.
                         For example, EPA plans to prepare an annual quality assurance report
                         presenting the results of its oversight audits and other quality assurance
                         measures. Further, after 3 years of program implementation, EPA plans to
                         conduct an interpretive data quality assessment in order to determine
                         whether the NATTS are achieving the data quality requirements used to
                         develop the data quality objectives.

                9.     Preliminary Analysis Indicates Insufficient Data Capture for the
                       NATTS

                EPA’s preliminary assessment of NATTS monitoring data indicated that a
                substantial amount of anticipated monitoring data had not been input into AQS.
                Based on analysis performed in planning the network, EPA determined that a
                sampling schedule of 1 in every 6 days with 85 percent data completeness10 was
                needed in order to calculate annual average concentrations. EPA made an initial
                effort to assess data completeness by reviewing the first five quarters of data for
                the program (January 2003 through March 2003) that was input into the AQS as of
                July, 2004. This preliminary assessment indicated that a substantial amount of
                anticipated monitoring data had not been input into the system. For example, no
                data had been submitted for 7 sites, and none of the sites had submitted data for the
                6 required air toxics. Only 5 sites met the 85 percent data completeness goal for all
                pollutants for which they had submitted data. Appendix F summarizes data
                completeness for the 23 NATTS as well as other site characteristics.

                According to OAQPS officials, the State agencies operating the NATTS had
                informed them that they had input their monitoring data into AQS as required, thus
                they expected to see better indications of data completeness in AQS. EPA

        10
           Data comp leteness is determined by dividing the total number of acceptable data values obtained by the
total number of possible values based on a 1 in 6 day sampling schedule.

                                                        29
          Regional officials and State agency officials responsible for operating these sites
          told us that these sites had started monitoring later in the program than the initial
          sites, and in some cases program officials were behind in entering their data into
          AQS. Further, OAQPS officials indicated that, in the early stages of a network,
          incomplete data reporting is not unexpected.

          According to OAQPS officials, efforts are underway to improve data reporting by
          making software available at no costs for uploading data to AQS. Further, EPA
          plans to offer training in this software.

Inconsistencies in Grant Awards
          Grant agreements were not consistent across regions in requiring the grantees to
          operate these sites as outlined in national guidance. State and local agencies
          operate the NATTS network sites with funding provided by EPA through CAA
          Section 103 grants. Section 103 grants are used for promoting coordination and
          acceleration of research, surveys, and studies related to the causes, health effects,
          welfare effects, extent, prevention, and control of air pollution. The respective
          EPA Regions award these grants for the sites in their regions. The grant
          agreements include commitments by the monitoring agency to conduct monitoring
          in compliance with the administrative and programmatic conditions listed in the
          grant award and work plan.

          Our review of the grant awards for 17 of the NATTS found that the grant
          agreements were not consistent across regions in requiring the grantees to operate
          these sites as outlined in national guidance. For example:

          •   Only five grant awards (all from Region 4) specifically required data to be
              entered into AQS within 90 days of the end of each calendar quarter. Other
              grant awards required data to be entered within 120 or 180 days from the end of
              the quarter.
          •   In one instance, the grant work plan and the site’s QAPP were not consistent in
              describing the scale of monitoring to be conducted. The grant work plan stated
              that the site would monitor on the urban scale, while the QAPP indicated that
              the site would monitor on the neighborhood scale.
          •   One grant work plan specified monitoring on a 1-in-12 day schedule even
              though national guidance required sampling on a 1-in-6 day schedule in order
              to collect sufficient data to compute annual average concentrations.

          In order to meet its objective, the NATTS network needs to collect data in a
          consistent manner. This cannot be achieved if EPA regions establish different
          grant requirements for the operation of these sites.




                                            30
Conclusions
         The NATTS are an integral part of EPA’ Strategy to monitor long-term trends in
         air toxics concentrations. In order to achieve these national objectives, consistency
         in monitoring siting, sample collection and analysis, quality control and assurance,
         and data reporting is essential. However, we found that some inconsistencies in
         the early operations of the network have occurred, including inconsistent
         application of quality controls, sites operating on different monitoring schedules,
         required pollutants not being monitored, and untimely data reporting. In addition,
         EPA guidance with respect to the consideration of emission sources when siting
         monitors was not clear. Further, the number of network sites that should be
         monitoring on a regional scale in order to identify background and transport
         concentrations was not clearly identified. These areas will need to be addressed
         expeditiously to help ensure the objectives of the NATTS are met.

Recommendations
         In order to obtain data from the NATTS network that is suitable for measuring
         long-term trends in ambient air toxics concentrations, we recommend that the
         Assistant Administrator, Office of Air and Radiation:

         4-1    Coordinate with EPA regional officials and State and local agency NATTS
                operators to ensure that these site operations are consistent with the current
                Technical Assistance Document in terms of monitoring schedule, required
                pollutants, data completeness, and timely data submission into AQS.

         4-2    Coordinate with the regional office program representatives to ensure that
                the NATTS site QAPPs sufficiently address all program requirements
                including the scale of monitoring being conducted and detailed discussion
                of laboratory standard operating procedures.

         4-3    Revise NATTS program guidance, including the model QAPP where
                appropriate, to:

                a.   More clearly state and explain the desired site characteristic with
                     respect to the influence of specific emission sources on air toxics
                     concentrations monitored by NATTS, and
                b.   Include the most recent approved and recommended methods.
         4-4    Coordinate with the regional office program representatives to ensure that
                the NATTS site grant awards and workplan commitments are consistent
                with national guidance requirements for the NATTS.




                                          31
Agency Comments and OIG Evaluation
         The Agency generally agreed with the recommendations in chapter 4, noting that
         our recommendations generally align with their current improvement efforts. EPA
         suggested that recommendation 4-1 be re-worded in order to account for any
         changes that may occur in the Technical Assistance Document with respect to
         monitoring schedule, required pollutants, data completeness, and timely data
         submission into AQS. We made changes accordingly. The Agency also stated that
         Section 1.9 of the Technical Assistance Document already addressed
         recommendation 4-3 (a); however, we continue to believe that Section 1.9 does not
         adequately describe what is meant by “specific emission sources” and does not
         address the number of sites with influences by these “specific emission sources.”
         EPA stated that recommendation 4-3 (b) was already addressed in the Technical
         Assistance Document. We agree but believe that the other guidance documents, in
         this case the model QAPP, should be updated accordingly.

         Our draft report also contained a recommendation to identify the number and
         location of NATTS monitors for assessing background and regional transport of air
         toxics, but the Agency noted that such data is already collected from rural
         monitoring sites. However, as noted in our report, only two of seven rural sites had
         indicated that their monitors were actually operating on a regional scale. Also,
         three of the seven rural sites indicated that they were monitoring on the
         neighborhood scale, not the regional scale. Accordingly, at most four sites may be
         monitoring on the regional scale, and possibly only two sites. If only two sites are
         monitoring on a regional scale, we continue to be concerned as to whether this is
         sufficient to produce national trends data. Nonetheless, we have removed
         recommendation 4-3(c) from the final report since we believe the intent of that
         recommendation – ensuring that those sites designated to conduct regional scale
         monitoring are in fact monitoring on the regional scale – can be achieved through
         appropriate implementation of recommendation 4-2.

         The full text of the Agency’s response to the draft report is attached as
         Appendix H.




                                           32
                                             Chapter 5
         Barriers to Implementing Effective Air Toxics
                      Monitoring Networks
                  Stakeholder groups11 we contacted identified several significant barriers to
                  implementing and expanding air toxics monitoring activities at the local, State,
                  and national levels. These barriers included:

                      •    Lack of funding
                      •    Lack of sampling methodologies or sufficiently sensitive methodologies
                      •    Quality assurance of monitoring data
                      •    Lack of health-related ambient air benchmarks for air toxics
                      •    Higher priority placed on criteria pollutant programs
                      •    No regulatory requirement for monitoring, and
                      •    Lack of sufficiently qualified and trained staff

                  The primary and most significant challenges cited were lack of funding and
                  methodological weaknesses for monitoring. EPA has addressed, and continues to
                  address, several of these barriers through such action as providing local grants for
                  monitoring, testing new methods for certain toxics, and dedicating a small portion
                  of its air toxics budget to quality assurance efforts. However, these issues continue
                  to pose significant challenges to air toxics monitoring activities at all levels, from
                  the NATTS project to the local community level.
                  The following sections discuss each of the barriers identified.

Insufficient Funding to Develop Comprehensive Monitoring
                  Lack of funding was cited by more stakeholders than any other barrier. Air toxics
                  monitoring is very expensive relative to monitoring for other pollutants such as
                  criteria12 pollutants, and the high costs are prohibitive for many local and State
                  agencies, which constitute a key component of the national monitoring network
                  strategy. Nearly all State and local representatives we contacted told us that they
                  would like to do more air toxics monitoring, but did not have the funding to
                  expand their current activities. This funding shortfall was also raised in a 2004
                  State and Territorial Air Pollution Program Administrators/Association of Local
                  Air Pollution Control Officials report that listed air toxics monitoring as an
                  important but underfunded activity cited by State and local agencies.

                  Several State and local agency officials told us that high costs prohibit them from
                  conducting air toxics monitoring or expanding their existing programs. Several


        11
           Stakeholder groups we contacted included EPA staff and management, researchers, State and local agency
representatives, enviro nmental orga nizations, and citizen action groups.

        12
             Pollutants for which E PA has set National Ambient Air Quality Standards.

                                                         33
         factors contribute to the high costs of air toxics monitoring. A State agency
         representative pointed out that a continuous air toxics monitor costs between
         $50,000 and $100,000, compared to about $10,000 to $15,000 for a continuous
         sulfur dioxide monitor. Also, for non-continuous monitors, collecting air toxics
         samples is relatively labor-intensive and the level of expertise required is relatively
         high, resulting in high labor costs. Furthermore, State agency representatives
         estimated analysis costs to be within the range of $40,000 to $75,000 a year for one
         site.

         Some State and local agencies rely on EPA grant money to fund air toxics
         monitoring, but this may not be sufficient for all of the agencies. Until 2003, EPA
         did not provide annual Section 105 grant funding to assist State and local agencies
         in air toxics monitoring, although EPA had helped fund several short-term local-
         scale air toxics monitoring efforts. As discussed in Chapter 4, in FY 2004 EPA
         began a program to fund a certain number of local-scale projects each year through
         the Section 103 grant program. However, the available funding for the first year of
         this program did not meet the demand for these funds by State and local agencies.
         For example, EPA awarded 16 grants for local-scale air toxics monitoring projects
         in FY 2004, yet received almost 50 applications for these funds.

         EPA is also limited by funding in its ability to expand the existing monitoring
         network. For example, EPA's budget for air toxics monitoring for FY 2004 was
         $16.5 million compared to its budget of over $43 million for fine particulate
         matter.
         In FYs 2003 and 2004, EPA redirected $6.5 million in CAA Section 105 funds
         from criteria pollutants to air toxics monitoring. It also had a budget of
         $10 million in Section 103 grants to disperse to State and local agencies for
         monitoring activities. The OAQPS Air Monitoring Group Leader cautioned that
         the ambient air toxics program should not be expanded for the sake of expanding.
         He advocated a more methodical approach to increasing monitoring activity that
         would be based on filling data gaps.

Methodological Weaknesses
         Weaknesses with the existing methodologies for monitoring air toxics were cited
         as a major barrier by all of the researchers and EPA staff and management we
         interviewed, and also by several of the State and local agency officials. A
         successful monitoring network requires routine and rigorous sampling and
         measurement methodologies to ensure data quality and consistency. EPA
         considers sampling and measurement methodology to be routine if "there is a
         written, frequently-used, demonstrated method including procedures for calibration
         of the target compound." EPA's Compendia of Methods for organic and inorganic
         compounds lists all of the methods for monitoring that are considered to be routine.

         Given the large number of air toxics it is not feasible to comprehensively monitor
         for all of these pollutants. Accordingly, EPA’s initial monitoring efforts have
         focused on identifying and monitoring for high priority air toxics. However,
         routine monitoring methods are not available for all of these high priority air

                                           34
toxics. In addition, for other air toxics the analytical method is not sensitive
enough to detect down to levels of concern for the pollutant. These problems with
analytical methodologies were noted in an October 2004 Science Advisory Board
peer review report of EPA ORD’s Air Toxics Research Strategy and Air Toxics
Multi-Year Plan. According to the Science Advisory Board report, neither EPA’s
strategy or its multi-year plan adequately addressed the need for developing
analytical methods for ambient air toxics monitoring. The Science Advisory Board
report notes that improved analytical methods are necessary as EPA, States and
tribes develop air toxics monitoring networks. Improved analytical methods are
necessary to measure ambient air concentrations to improve the understanding of
human exposures to air toxics, for evaluating models used to predict ambient
concentrations, and ultimately to reduce uncertainty in risk assessment. The
following sections discuss methodological concerns raised by stakeholders.

Routine Methods Not Available for Three of Six National Air Toxics of
Concern
Integrated air sampling methods are the predominant type of monitoring employed
for air toxics networks. These methods use a pump to draw an air sample across a
collection device. For metals and carbonyls air toxics this collection device
consists of some type of filter or reactive material that collects the air toxics. In the
case of VOC air toxics the sample is collected in a canister. The pump can be
programmed to collect air for a pre-set period of time (e.g., 1 hour to 24 hours).
The collected samples are then sent to a laboratory for analysis.
In November of 2003, ORD researchers documented the availability of
measurement methods for the 19 core air toxics targeted for monitoring as part of
the NATTS network. Three (acrolein, 1,3-butadiene, and hexavalent chromium) of
these 19 air toxics lack routine
methods for measuring ambient      Table 5.1: Risk Driver Categories of Three
air concentrations of these                   Identified Risk Drivers Lacking
compounds. According to EPA,                  Routine Methods
these three pollutants present        Air Toxic              Type of Risk Driver
health risks to a large segment of
the population as shown in            chromium        national cancer risk driver
Table 5-1. Furthermore, these       1,3-butadiene     regional cancer risk driver
three toxics are among the six
                                       acrolein       national non-cancer hazard driver
substances that are required to be
reported at all the individual
NATTS.

OAQPS officials told us that many of the methods that were approved as routine
could still be improved to provide better ease of use and to improve their method
detection limits. For example, OAQPS was having one of its contractors
investigate methodological options for measuring acrolein. Further, according to
these officials, NATTS will begin measuring and reporting data for chromium VI
in January, 2005. The samplers and the analysis of filters will be provided by an
EPA contractor.


                                   35
                   Some Analytical Methods Cannot Detect Levels of Concern

                   Another problem cited by stakeholders is that some of the existing methods for
                   measurement have inadequate method detection limits for certain toxics. Method
                   detection limits are generally considered inadequate if they are not low enough to
                   identify ambient concentrations at an established health benchmark level. For
                   cancer causing air toxics this is generally considered to be at the concentration
                   associated with a 1-in-1-million excess lifetime cancer risk. For non-cancer
                   causing air toxics these are levels at which a lifetime exposure would create no
                   appreciable risk of adverse health effects, referred to as the reference
                   concentration. A 2001 Public Health Reports article13 identified 12 air toxics for
                   which the most commonly reported method detection limits were higher than the
                   health benchmark (based on either a 1-in-1-million cancer risk or the reference
                   concentration). Included in these 12 air toxics were 1,3-butadiene, arsenic, and
                   chromium, all of which were determined to be national or regional risk drivers
                   based on the 1999 NATA.
                   Several stakeholders also cited the lack of continuous monitoring methods for
                   certain air toxics as a problem. Without continuous monitoring, spikes or peaks in
                   concentrations that could potentially cause acute (short-term) health problems may
                   not be detected. EPA is using the local-scale projects to attempt to address this
                   technological barrier. Examples of continuous methods proposed in the selected
                   local-scale projects include:

                   •   Differential Optical Absorption Spectroscopy, and
                   •   Fourier Transform Infrared Spectroscopy.

                   Differential optical absorption spectroscopy will be used to continuously measure
                   formaldehyde, and can potentially make continuous measurements of benzene,
                   napthalene NO2, SO2, toluene, xylenes, and styrene. Fourier transform infrared
                   spectroscopy will be used to continuously measure VOCs. The local-scale projects
                   will provide an opportunity to use these non-routine advanced technologies.

                   Ongoing Activities to Address Methods Development
                   Research is currently being conducted within EPA, and in other organizations, that
                   shows promise in developing routine methods and improving method detection
                   limits for acrolein and 1,3-butadiene. EPA is also conducting studies to improve
                   the methodology for monitoring chromium VI (hexavalent chromium). This
                   research is discussed in Appendix G.

                   Further, in a November 30, 2004 memorandum, the Assistant Administrator for
                   ORD announced plans to establish an Applied Measurement Science Research
                   Program. This program would address the “lack of any real Agency mechanism to
                   address many of the day-to-day measurement science problems that face” the


         13
              Kyle, Amy D. "Evaluating the Health Significance of Hazardous Air Pollutants Using Monitoring Data,"
Public H ealth Rep orts. Vol. 116, Jan.-Feb. 2001.

                                                        36
          Agency and the States. We recognize EPA’s need to balance research efforts in
          several areas related to air toxics and to allocate limited research funds across
          various research programs. Thus, any potential changes in research funding to
          address issues presented in this report will need to be balanced against the need for
          research in other areas.

Stakeholders Concerned About Consistency of Data Reporting
          Many State and local agency stakeholders we contacted had concerns about
          consistency in data reporting. For example, one State agency representative told us
          that not all State, local, and national monitoring programs submit data in the same
          format. Another official commented that the standards for data measurement
          entries in AQS (such as non-detect levels) were not appropriate for air toxics. To
          address the data reporting problem, EPA and the State and local agencies have
          established a data management team to identify, prioritize, and resolve problems
          concerning the submission of air toxics data to AQS.

State Officials Cited Lack of Health Benchmarks
          Another common barrier cited by State and local agency representatives and
          environmental groups is the lack of ambient standards or benchmarks for assessing
          public health risks. State and local agency officials indicated that they have no
          health benchmarks with which to compare their data on ambient air concentrations
          for high-risk toxics, and this makes it very difficult to assess the level of risks for
          their communities. For example, EPA has not developed a health benchmark for
          diesel particulate matter, a suspected risk driver. Further, these officials told us
          that monitoring data is not very useful to communities if they do not also have
          guidelines for what that data means in terms of health risks, particularly because
          they do not have the resources to conduct risk assessments based on the monitoring
          data collected.

          EPA officials noted that EPA has presented health-related benchmarks for a
          majority of the air toxics listed in the CAA on the Integrated Risk Information
          System web site. EPA ORD officials also noted that ORD is working to improve
          air toxics health benchmarks by updating and revising the risk assessment
          information for several air toxics listed in the Integrated Risk Information System.
          As previously noted, better information on human exposure is also needed for
          relating monitoring data to health risks.

Lack of a Statutory Requirement
          One of the barriers faced by EPA is that it lacks a mandate for implementing a
          large-scale, nationwide monitoring network. Air toxics monitoring is not required
          or mandated by law, and this limits EPA's authority to impose strict guidelines or
          requirements on any of the monitoring conducted by local, State or tribal agencies.
          The only authority the Agency possesses over EPA-funded monitoring is to
          discontinue the funding or not renew the grant.



                                            37
Higher Priority Placed on Other Pollutants
          Several stakeholders from environmental groups, State and local agencies, and
          from within EPA told us that air toxics is not a high priority in the political and
          regulatory environment. In general, there is a higher priority placed on criteria
          pollutants because they are required by law to be monitored. States and local
          agencies that face limited budgets for air quality issues have a difficult time
          implementing air toxics monitoring when the political and regulatory environment
          focuses much more closely on criteria pollutants, such as particulate matter.
          EPA officials noted that the health effects associated with particulate matter
          necessitate the level of monitoring and funding afforded this program. Further,
          particulate matter speciation monitoring provides collateral benefits to the air
          toxics program by helping understand the concentrations of certain air toxics
          (e.g., polynuclear aromatic hydrocarbons and metals). Similarly, monitoring for
          ozone precursors augments air toxics monitoring efforts.

Insufficient State and Local Agency Staff
          State and local agency representatives we contacted identified barriers to their
          monitoring activities at the local level related to agency staffing issues. They said
          that State and local agencies have difficulty offering salaries that compete with
          private sector salaries to bring in and retain the highly trained and qualified staff air
          toxics monitoring requires. Further, the costs of training are very high, and one
          agency representative indicated that agencies sometimes lose staff to the private
          sector after they have spent money providing them with training.

Conclusions
          Several barriers exist to the implementation of more comprehensive and effective
          monitoring networks, at both the State/local and national levels. Improvements are
          needed to adequately characterize ambient air monitoring concentrations and
          evaluate the success of air toxics programs. Some of these barriers are not easily
          overcome and impact other barriers (e.g., funding concerns); others will require
          long-term efforts to resolve (e.g., development of new and/or better monitoring
          methodologies). Given the varied nature of these barriers, we believe a long-term
          strategy and implementation plan is needed to address these barriers in a logical
          and sequential fashion.




                                             38
Recommendations

         We recommend that the Assistant Administrator, Office of Air and Radiation:

         5-1    Prioritize the barriers to ambient air toxics monitoring and develop a long-
                term strategy and implementation plan for addressing these barriers.

         We recommend that the Assistant Administrator, Office of Research and
         Development:

         5-2    Consistent with ORD’s plans to address measurement science problems,
                continue to coordinate with OAQPS officials to identify key air toxics in
                need of improved ambient air monitoring methodologies and incorporate
                plans for conducting research on improved methodologies for these key air
                toxics in ORD’s Air Toxics Research Strategy.

Agency Comments and OIG Evaluation
         The Agency generally agreed with the recommendations in this chapter, while also
         highlighting its need to balance the allocation of resources across various research
         programs. In its comments, EPA expressed concern that our draft did not
         sufficiently consider the need, given the “current environment of fiscal restraint,”
         to balance the development of ambient air toxics monitoring methods with other
         research needs within the air toxics realm, and across Agency programs in general.
         We acknowledge EPA’s need to balance resources for research across multiple
         areas, and have added language to the final report to further address this issue. The
         full text of the Agency’s response to the draft report is attached as Appendix H.




                                          39
                                                                                      Appendix A

                 Details on Scope and Methodology
Objective 1: What is the status of EPA, State, and local agency efforts to monitor toxics in
             ambient air?

       We obtained an understanding of EPA’s Air Toxics Monitoring Program by reviewing
       various EPA documents including program plans and components contained in OAQPS’s
       National Air Toxics Monitoring Strategy. In addition, we conducted significant literature
       research and internet research on various components of the monitoring program. We also
       conducted several meetings with EPA staff and interviews with numerous stakeholders.
       We identified locations of existing national, State, and local monitors included in the
       proposed national monitoring network. Based on interviews with EPA staff, we also
       identified EPA’s AQS as the most reliable repository of current monitoring data. AQS
       contains data submitted by monitoring operations from across the country and is updated
       quarterly on a calender year basis. We determined a working inventory of ambient air
       toxics monitors by extracting data from the AQS. The data extraction was conducted near
       the completion of field work (September 2004) resulting in 542 monitor sites reported
       during the period January 1, 2003, to September 15, 2004. Monitor counts may vary by
       period. The monitor inventory was used to determine the quantity of monitors by State,
       county and census tract. We used GIS to map the locations of the monitors and to
       determine the spatial distribution of the monitoring sites. We reviewed EPA documents
       related to Data Quality Objectives for the National Ambient Air Toxics Trends Monitoring
       Network. We also conducted an assessment of the monitor data appropriateness,
       reliability, and limitations.

       Our initial analysis focused on the extent to which ambient air monitoring occurred in the
       50 census tracts estimated to have the greatest cumulative cancer risks from air toxics. We
       took this approach because elevated ambient air toxics concentrations tend to be
       concentrated near the source(s) of the air toxics. Thus a monitor in a county may not be
       representative of air toxics concentrations throughout the county, and in particular,
       representative of smaller areas (e.g., census tracts) with elevated ambient concentrations.
       Similarly, county-wide estimates of risks from air toxics are not necessarily representative
       of the risks in smaller areas (such as a census tract) within a county. For the 50 census
       tracts in our initial sample, we interviewed State and local officials with jurisdiction for
       ambient air toxics monitoring in these areas to verify whether monitoring was being
       conducted or had been conducted in these census tracts, and to obtain information on their
       air toxics monitoring programs in general.

       After completing our initial analysis at the census tract level, we expanded our analysis to
       evaluate the correlation between the placement of monitors within a county and counties
       with high estimated cancer risks and high emissions density.

                  Limitations: Our analysis was limited to AQS data which may be incomplete.
                  The primary reason for the incompleteness is that State and local agencies, in
                  many cases, are not required to submit monitor data or identify gaps in the data.
                  Also, monitor data and monitor counts reported in AQS vary dependent on a

                                                40
           number of factors, including term of the monitoring study. Some monitoring
           operations terminate after several weeks and data from short-term studies may
           not be included in AQS. There are other factors, such as sufficient data to
           calculate an annual average, that also may affect the monitor count. This
           limitation may impact our results by leading to underestimating or
           overestimating monitors in a particular location.

We obtained emissions data from the EPA’s 1999 National Emissions Inventory. We
reviewed documents related to the Data Quality Objectives for the National Emissions
Inventory, including the 1999 National Emissions Inventory Preparation Plan (Revised,
Feb. 2001). We also conducted an assessment of the emissions data appropriateness,
reliability, and limitations. The data was formatted for total emissions for all air toxics,
33 priority air toxics, and individual air toxics by source category at national, State, and
county levels. We determined emissions density for each State and county by calculating
the ratio of total emissions to area (square miles). We used GIS to produce a map of the
emissions data to determine the spatial distribution of emissions densities and to highlight
areas where densities were highest (lowest). We then categorized the universe of counties’
emissions densities by percentiles. We also chose a sample of the top 50 counties by
emissions density. These samples were compared to monitor, risk, and population data to
determine monitoring activity, cancer risks, and population in those areas. We drew
conclusions concerning the extent of monitoring in geographic areas based on the results
of this comparison.

           Limitations: Various stakeholders, including the U.S. Government
           Accountability Office and the EPA’s Office of Inspector General, among
           others, have reported that certain aspects of National Emissions Inventory’s
           emissions estimation methods may lead to unreliable estimates of air
           emissions. A significant number of States and local agencies did not submit air
           toxics emissions information. For example for the 1999 inventory, 39 States, 9
           local agencies, and 3 tribal agencies submitted emissions estimates. Also,
           studies have found that air toxics often are a localized problem and certain of
           EPA’s emissions estimation methods do not accurately depict local variations.
           Therefore, our results based on National Emissions Inventory emissions
           estimates may underestimate or overestimate the level of emissions in a
           particular geographic area.

We obtained health risk data based on the 1999 NATA from OAQPS. OAQPS provided
cumulative cancer and non-cancer risk estimates by county and census tract. We used GIS
to determine the spatial distribution of cancer risks according to the NATA estimates. We
categorized the risk estimates by percentiles for both counties and census tracts. We also
selected the highest 50 from for both counties and census tracts. These samples were
compared to monitor, emissions, and population data to determine monitoring activity,
emissions density, and population for each sample. We drew conclusions concerning the
extent of monitoring in these areas based on the results of this comparison. We selected
pollutants from a list of high risk pollutants, as determined by the NATA, and compared
them to monitor data found in AQS. We drew conclusions about the extent of monitoring
for those pollutants based on the results of this comparison. We conducted interviews
with officials and staff from each of the monitoring agencies represented in our sample of


                                         41
      50 tracts with highest risks. These interviews were conducted to determine the extent of
      monitoring and to provide general information concerning air toxics monitoring programs
      in those jurisdictions.
                 Limitations: The NATA is limited by gaps in the data, limitations in computer
                 models used, assumptions used in the assessment, and limitations in the overall
                 design of the assessment. Therefore, our results based on the NATA risk
                 estimates may underestimate or overestimate the health risks in a particular
                 geographic area. Since our interviews with various stakeholders were not
                 based on a random sample, the information resulting from these interviews may
                 not be generalized to all jurisdictions or represent the views of all stakeholders.


Objective 2: What progress have EPA, State, and local agencies made in implementing a
             national air toxics ambient monitoring network that meets the stated
             objectives of the network?

      In order to assess EPA’s progress in establishing a national network, we compared
      information on national trends site and local-scale project implementation to EPA’s
      strategic planning and guidance documents to determine whether the national trends sites
      and planned projects met the objectives for these monitoring programs. The National
      Monitoring Strategy Air Toxics Component provided background, requirements,
      objectives, and expectations for the national air toxics monitoring network. We
      interviewed and conferred with OAQPS officials, as well as region officials, to gain an
      understanding of the national strategy and program. We looked at EPA grant guidance to
      better understand funding for the NATTS, local-scale projects, and other tasks (e.g., data
      analysis). Technical documents (such as the Technical Assistance Document) were used
      to better understand the monitoring technology and requirements for the program. We
      used contractor documents to analyze the adherence of the NATTS with the desired site
      characteristics and understand the system in place for ensuring the achievement of these
      characteristics. Siting documents (including 40 CFR 58 Appendix E) facilitated the
      team’s understanding of siting guidelines. We analyzed QAPPs to determine if the
      NATTS would meet the site characteristics laid out in the strategy. Further, we looked at
      other data quality documents (e.g., quality management plans and policy) to further our
      understanding of EPA’s quality system. We analyzed local-scale project proposals to
      evaluate whether the selected projects would meet the overall objectives of the local-scale
      component of the strategy if implemented as planned. Grant awards and grant work plans
      helped determine the grant requirements for the NATTS and the local-scale projects.

                 Limitations: We did not receive QAPPs for two of the NATTS. Therefore, we
                 did not review QAPPs from all sites nor did we verify that the sites were
                 operating as indicated in the plans.




                                               42
Objective 3: What barriers, if any, exist to the implementation of the national air toxics
             ambient monitoring network?

       We conducted 56 interviews with representatives from various stakeholder groups
       including EPA, State, and local agencies, air pollution organizations, researchers,
       environmental groups, and citizen action groups in order to understand their concerns and
       to ascertain what they perceived as existing barriers to implementing a national monitoring
       network. We tabulated their responses by category and determined the frequency of
       responses. We also reviewed various documents, including EPA strategies and plans, as
       well as studies and reports prepared by other organizations that addressed ambient air
       toxics monitoring to both identify barriers and actions that EPA or others may be taking to
       address these barriers.

                  Limitations: Because our interviews of various stakeholders were not based
                  on a random sample, the information resulting from these interviews may not
                  be generalized to all jurisdictions or represent the views of all stakeholders.




                                               43
                                                                              Appendix B

   Statistical Correlation Between Monitoring
               and High Risk Areas
Our initial analyses showed a significant number of high risk/high emissions areas without
monitors (see Chapter 2). In order to more fully understand the association between the
risk/emissions and monitors, we calculated the statistical correlation between the variables
for the applicable data sets and subsets. Our analysis was based on 542 monitor sites
distributed over 297 counties, identified from AQS as reporting data for the period
January 1, 2003, to September 15, 2004.

Our results show no correlation between emissions density and monitors for the
50 counties with highest estimated emissions density and no correlation between cancer
risk and monitors for the 50 counties with highest estimated cancer risk. Although the
correlations improve slightly when all counties with monitors are considered, the
relationship remains very weak.

                                     Emissions
        Correlation (w/monitors)      Density      Risk

        All counties                       0.21           0.42

        All counties with monitors         0.08           0.23

        Top 50 counties                   -0.02        -0.01




Coefficients range between -1 and 1 and those between -0.5 and 0.5 generally indicate
very little association between the variables of interest. Since we obtained emissions and
monitor data for the entire population of counties with monitors, there was no need for
hypothesis tests or confidence intervals. The correlations between emissions density and
the population of counties with monitors and cancer risk with the population of counties
with monitors is shown in the table above.

These computations support a conclusion of no significant association between either
emissions density or cancer risk and monitoring activity.




                                            44
                                                                                   Appendix C

             Cancer Risks Distribution and Location

The following maps show EPA regions and counties within those regions with greater than 1 in
100,000 risk of cancer due to air toxics. The locations of air toxics monitors are also shown.




                                               45
46
47
48
49
50
                                                                                            Appendix D

                         List of 33 Urban Air Toxics
Type                   Air Toxic Pollutant

Volatile Organic       acrylonitrile
Compounds
                       benzene

                       1,3-butadiene

                       carbon tetrachloride
                       chloroform
                       1,2-dibromoethane (ethylene dibromide)
                       1,3-dichloropropene

                       1,2-dichloropropene (propylene dichloride)

                       ehtylene dichloride (1,2-dichloroethane)
                       ethylene oxide
                       methylene chloride (dichloromethane)

                       1,1,2,2,-tetrachloroethane

                       tetrachloroethylene (perchloroethylene)

                       trichloroethylene

                       vinyl chloride

Metals (Inorganic      arsenic compounds
Compounds)
                       beryllium and compounds

                       chromium compounds

                       lead compounds

                       manganese compounds

Semi-Volatile          2,3,7,8-tetrachlorodibenzo-p-dioxin (& congeners & TCDF congeners)
Organic Compounds
and other Air Toxics   coke oven emissions

                       hexachlorobenzene
                       hydrazine

                       polycyclic organic matter (POM)

                       polychlorinated biphenyls (PCBs)

                       quinoline

Aldehydes (Carbonyl    acetaldehyde
Compounds)
                       formaldehyde

                       acrolein




                                                    51
                                                                                                            Appendix E

                                    Data Quality Indicators
Table E.1: Data Quality Indicator Definitions

 Data Quality Indicator                                              Definition

 Precision                    A measure of mutual agreement among individual measurements of the same
                              property, usually under prescribed similar conditions, expressed generally in terms of
                              the standard deviation.

 Bias (Accuracy)*             The systematic or persistent distortion of a measurement process which causes errors
                              in one direction (i.e., the expected sample measurement is different from the sample's
                              true value).

 Completeness                 The percentage of valid data points relative to total possible data points.

 Representativeness           A measure of the degree to which data accurately and precisely reflect a characteristic
                              of a population parameter at a sampling point or for a process condition or
                              environmental condition.

 Comparability                A qualitative term that expresses the confidence that two data sets can contribute to a
                              common analysis and interpolation. Whether two data sets can be considered
                              equivalent in regard to the measurement of a specific variable or groups of variables.

 * Bias is now used instead of accuracy



Table E.2: How the Air Toxics Monitoring Program Addresses the Data Quality Indicators

     Data Quality                                                  Description
      Indicator

 Precision                  Accounted for in the Data Quality Indicators input parameters autocorrelation and
                            Measurement Coefficient of Variation. The analysis of collocated sampling.

 Bias (Accuracy)            Addressed through the Proficiency Testing program and technical systems audits to
                            understand variability around what is thought to be the true value. EPA is interested in
                            whether there are things in the operation of the monitoring site that cause the calculated
                            value to be outside of the range of acceptable bias. Therefore, there is a qualitative and
                            a quantitative component to bias. The quantitative component, the measurement quality
                            objective is +15% based on the measurement error coefficient of variation of (15%).

 Completeness               Addressed by the quarterly completeness criterion (85%).

 Representativeness         Requires sites to not use monitoring scales any lower than neighborhood scale. EPA
                            does not want the monitoring organizations to be measuring so close to the source that
                            they get higher numbers than the concentrations to which people are actually exposed.

 Comparability              Requiring the monitoring organizations to use the same methods. However, now, if
                            monitoring organizations can meet the Measurement Quality Objectives for precision and
                            bias then they can use any method, as long as they meet those Measurement Quality
                            Objectives. If they meet them, EPA will assume the systems are comparable. This
                            helps make a more performance-based system and helps keep the door open to new
                            technologies.




                                                           52
                                                                                                      Appendix F
                       Summary of NATTS Characteristics
                                                                No. of
                                 Urban(U)/     Monitoring               Sampling
Region            City                                         Core Air
                                 Rural (R)       Scale                  Schedule                 Data ***
                                                               Toxics
   1     Providence, RI              U               *             *          *        Most pollutants > 85%
         Chittenden, VT              R           Regional         18        1-in-6     No Data
         Roxbury, MA                 U        Neighborhood        19        1-in-6     Varied among pollutants
   2     New York City, NY           U              **            18        1-in-6     All pollutants > 85%
         Rochester, NY               U              **            18        1-in-6     No Data
   3     Washington DC               U        Neighborhood        19        1-in-6     All pollutants > 85%
   4     Atlanta, GA                 U        Neighborhood        3         1-in-6     Most pollutants > 85%
         Tampa, FL                   U        Neighborhood        18        1-in-6     All pollutants > 85%
         Tampa, FL                   U        Neighborhood        18        1-in-6     All pollutants > 85%
         Hazard County, KY           R        Neighborhood        19        1-in-6     Varied among pollutants
         Chesterfield, SC            R           Regional         19       1-in-12     No Data
   5     Detroit, MI                 U        Neighborhood        19        1-in-6     Only metals > 85%
         Northbrook, IL              U               **           **          **       Varied among pollutants
         Mayville, WI                R               **           11          **       No Data
   6     Houston, TX                 U               **           19        1-in-6     One quarter complete
         Harrison County, TX         R               **           19        1-in-6     No Data
   7     St. Louis, MO               U               **           17        1-in-6     Most pollutants > 85%
                                                                                       All pollutants > 85% for
   8     Bountiful, UT               U        Neighborhood        18        1-in-6
                                                                                       2 quarters
         Grand Junction, CO          R        Neighborhood        18        1-in-6     No Data
   9     San Jose, CA                U               *             *          *        No pollutants > 85%
         Phoenix, AZ                 U               **           18        1-in-6     No pollutants > 85%
  10     Seattle, WA                 U        Neighborhood        18        1-in-6     All pollutants > 85%
         La Grande, OR               R        Neighborhood        19        1-in-6     No Data


Footnotes:
* =   QAPP did not specify
** = Did not receive QAPP for this NATTS site
*** = refers only to pollutants for which data was entered

Note: Four characteristics are not listed in this schedule (Geographic diversity, physical siting, emission sources,
      and quality assurance)




                                                          53
                                                                                       Appendix G

         Research Activities for Key Urban Air Toxics
                Measurement Methodologies

Acrolein

The Environmental and Occupational Health Sciences Institute has completed the first (laboratory)
phase of an EPA contract for the development of a new method for sampling and measuring
acrolein, which is considered to be a very unstable compound. The new method is similar to
method TO-11A in EPA's Compendium of Methods, but uses DNSH (Dansylhydrazine) rather
than DNPH (2, 4-Dinitrophenylhydrazine) as the derivatizing compound. This method allows for
passive sampling and better detection of acrolein. The Principal Investigator on the study told us
that the method has method detection limits sufficient to measure concentrations at the level of
concern. The second phase of the research, field validation at four sites, is currently under way,
and EPA is also testing the new method in the Detroit Exposure and Aerosols Research Study.


1,3-Butadiene

1,3-butadiene is a difficult compound to measure because once an ambient sample is captured in a
canister, any nitrogen oxide (NO) and nitrogen dioxide (NO2) in the sample begins to "attack" the
butadiene, and the butadiene essentially decays. Independent researchers in Nevada are currently
working on a new method for butadiene that removes the NO and NO2 from the sample, thus
preserving the original concentration of the butadiene. The device for removing the NO and NO2
is called a NOx denuder, and the researchers say that this method provides sufficient method
detection limits to measure risks at the 1-in-1-million level. This method is currently being tested
in an EPA study relating to vehicle emissions being conducted in Kansas City.

Another method for measuring butadiene is being tested by EPA in the Detroit Exposure and
Aerosols Research Study. This method involves the use of a sorbent that retains butadiene better
than the sorbents used for sampling VOCs in other methods.


Hexavalent Chromium (Chromium VI)

It is difficult to monitor for chromium VI because it is has very poor recovery rates from sampling
filters. Currently, NATTS are reporting only for total chromium, because using current methods
that have poor recovery for chrome VI, they are getting “non-detect” readings for chromium VI.
EPA contracted a research project with Eastern Research Group to improve the extraction and
recovery of chromium VI from sampling filters. Using a cellulose filter rather than a Teflon filter
(as is currently used), they have been able to improve sample recovery. EPA is now contracting
another project to expand this research. This next step will study whether recovery of chromium
VI remains adequate after up to a week of storage. Most agencies doing monitoring do not extract
and analyze the samples right away. Instead, they are stored, or archived, for a period of time
before they are analyzed. This research will study what level of recovery is possible after certain
periods of storage.

                                                 54
According to staff in the OAQPS Monitoring and Quality Assurance Group who are overseeing the
contract research, this method shows promise of becoming a standard, routine method. If the
results from this current research demonstrate that this is a viable method (if recovery remains
good after periods of up to a week of storage), EPA plans to incorporate it into the NATTS
program.


Review of Measurement Methodologies

In terms of addressing methodological weaknesses, EPA’s National Exposure Research Laboratory
has developed a review of routine methods for 20 key and core urban air toxics, although its full
review of all 33 urban air toxics has not yet been completed. The Agency has also contracted
research for methods development; for example, the laboratory research conducted by the
Environmental and Occupational Health Sciences Institute at Rutgers for a new method for
acrolein. EPA is also field testing new methods for acrolein and 1,3-butadiene in ongoing Agency
studies, such as the Detroit Exposure and Aerosol Research Study. In addition, in order to provide
guidance to other parties conducting toxics monitoring, EPA has published the Compendium of
Methods for the Determination of Toxic Organic Compounds in Ambient Air and the
Compendium of Methods for the Determination of Inorganic Compounds in Ambient Air, which
list and describe all the routine and widely accepted methods for monitoring that have been
identified.




                                               55
                                                                                       Appendix H

                Agency Response to the Draft Report
                                           FEB 15 2005

MEMORANDUM

SUBJECT:       Response to the Draft Evaluation Report: Progress Made in Monitoring Ambient
               Air Toxics, But Further Improvements Can Increase Effectiveness, Assignment
               No. 2003-1299

FROM:          Jeffrey R. Holmstead
               Assistant Administrator

TO:            J. Rick Beusse
               Director for Program Evaluation, Air Issues

        Thank you for providing us the opportunity to respond to the draft report from the Office
of Inspector General (OIG) issued December 21, 2004. The purpose of this memorandum is to
provide comments on the draft evaluation report, “Progress Made in Monitoring Ambient Air
Toxics, But Further Improvements Can Increase Effectiveness, Assignment No. 2003-1299.”
This is a coordinated response from the Office of Air and Radiation (OAR) and the Office of
Research Development (ORD).

         The recommendations provided by the OIG generally align with our current improvement
efforts. Our concern with the OIG report pertains to communicating the necessary balance
among programmatic priorities, both within the air toxics monitoring program and across air and
other media programs.

      If you have additional questions or need clarifications, please contact Peter Tsirigotis at
919-541-9411.

Attachment

cc:    Pete Cosier, Office of Air and Radiation, Audit Followup Coordinator (6102A)
       Dr. Dan Costa, National Human and Environmental Effects Laboratory (B 143-02)
       Thomas C. Curran, Deputy Director, Office of Air Quality Planning and Standards
       (C404-04)
       Dr. Gary J. Foley, Director, National Exposure Research Laboratory (D305-01)
       Tim Hanley, Ambient Air Monitoring Group (D243-02)
       Michael N. Jones, Ambient Air Monitoring Group (D243-02)
       Lek G. Kadeli, Acting Deputy Assistant Administrator for Management (S1O1R)
       Ardra Morgan-Kelly, Audit Liaison, National Exposure Research Laboratory
       William Lamason, Associate Director, Emissions, Monitoring and Analysis Division
       (C304-02)



                                                 56
                                         -2-

Phil Lorang, Leader, Ambicnt Air Monitoring Group (D243-02)
Stephen D. Page, Director, Office of Air Quality Planning and Standards (C404-04)
Joann Rice, Ambient Air Monitoring Group (D243-02)
Dr. Rich Scheffe, Emissions, Monitoring and Analysis Division (C304-02)
Dr. Linda Sheldon, Director, Human Exposure and Atmospheric Sciences Division
(E205 -0 1)
Laurie Trinca, Audit Liaison, Office of Air Quality Planning and Standards (C404-2)
Peter Tsirigotis, Director, Emissions, Monitoring and Analysis Division (C304-02)
John Vandenberg, Associate Director, National Center for Environmental Assessment
(13243-01)
Timothy Watkins, Deputy Director, Human Exposure and Atmospheric Sciences
Division (E205-01)




                                         57
ATTACHMENT

Response to Draft Evaluation Report: Progress Made in Monitoring Ambient Air Toxics,
But Further Improvements Can Increase Effectiveness, Assignment No. 2003-1299

We have the following general comments on the draft conclusions and recommendations:

General Comments                         See Appendix I - Note 1 for OIG Evaluation

(1)    Resource Constraints and Needed Balance. Allocation of funds within and across
       programs represents a challenging barrier to progress. Although this point is
       addressed in response to recommendation 5-1, it is sufficiently important to
       reiterate in this general comment section of the response. Given the current
       environment of fiscal constraint, garnering additional funding to further advance the
       Air Toxics Monitoring Program represents a very substantial challenge. Further,
       the report includes the recommendation to increase research efforts to develop
       ambient air toxics methods, but does not consider the need to balance research
       investments; this particular research need is among many in the air toxics realm.
       The OIG report cites the Science Advisory Board's (SAB's) review of the ORD Air
       Toxics Research Strategy and Multiyear Plan in making the recommendation to
       increase research efforts related to ambient monitoring methods, but the SAB also
       noted several other research areas related to air toxics that needed to be addressed.
       It must be duly noted tat as part of the Agency's annual planning and budgeting
       process, ORD works with EPA's program and regional offices to allocate funds
       across various research programs. This process ensures that media-specific
       recommendations are fully considered and that the areas of greatest need are given
       the highest priority. Using this process, OAR has an opportunity to elevate the
       relative priority of research supporting air toxics methods development within the
       air research budget. It is also important to note that ORD must also balance EPA's
       needs for research not only within the air research program, but also across all
       environmental activities.

(2)    Focus on Characterizing High Risk Areas. A majority of the proposed
       recommendations concentrate on characterization of the locations that pose the
       greatest risks. It is important to note that the air toxic program is not the criteria
       program in which attainment status is determined by an ambient monitoring
       approach. Further, while OAR recognizes the importance of air toxic monitoring
       in characterizing risks, we also believe that such monitors should be used in
       conjunction with other characterization tools (models, personal monitoring, and
       biomarkers) to more fully characterize air toxic risks.

 (3)   Relationship of Personal Exposure, Ambient Concentrations, and Health Risks.
       The report does not address the relationship of actual personal exposures to ambient
       air concentrations and health risks. Throughout the report, reference is made to the
       need to site air toxics monitors in the areas estimated to present the greatest health
       risks from exposures to air toxics. However, the report does not mention the fact




                                           58
     that an ambient monitor does not necessarily represent actual personal exposure to
     air toxics. This is important because the link between concentrations measured at an
     ambient site and the potential health risks is the actual exposure of an individual. A
     person's actual] exposure to air taxies will depend on many factors including their
     personal activities such as time spent in indoors, outdoors, and driving. The NATA
     National Scale Assessment, which is used in the report to identify the census tracks
     in the country with the greatest estimated health risks, does include the use of human
     exposure modeling to estimate actual exposures to air toxics, but there are
     uncertainties and limitations in the NATA exposure assessment. In summary, while
     the focus of this report is ambient monitoring network, the relationship of ambient
     concentrations to personal exposures should be acknowledged and the need to
     improve the understanding of this relationship for air toxics should be included as a
     recommendation.
                                                    See Appendix I - Note 2 for OIG Evaluation
Responses to the Recommendations

2-1 Develop a strategy in coordination with State, local, and tribal partners to
increase siting a/local-scale monitors in locations that are estimated to present the
greatest health risks from exposure to air toxics and are representative of different
sources of air toxics emissions. This strategy would apply to State and local agency and
tribal fixed monitors as well as the local-scale projects that EPA awards. The strategy
would not apply to the NATTS sites which are designed to measure long-term trends in
ambient concentrations.

This recommendation targets two separate and distinct components of the National Air
Toxics Monitoring Program - the Section 103 funded competitively selected Community
Scale Monitoring projects, and the Section 105 funded air toxics monitors. The Agency
recognizes the value and importance of the siting criteria referenced in this
recommendation, and intends to emphasize these criteria, along with other key criteria, in
selecting the community-scale monitoring projects. Once selected, the Regional Offices
overseeing the award and execution of these grants must ensure the agreed upon siting
requirements are implemented. For the 105 funded air toxics monitoring, developing and
successfully implementing a strategy to achieve the recommended siting objectives will
present a substantial challenge given the relative autonomy with which State and local
agencies may use these resources. OAR will continue to work with the Regional Offices
and STAPPA/ALAPCO to further implement these objectives. As a final note, while
some of the high-risk locations should be evaluated, the selection and variety of such
areas need to be addressed systematically in light of siting considerations associated with
competing objectives and limited resources.

2-2 Develop a method for identifying and prioritizing high risk areas for local-scale
monitoring which uses various air toxics related information and available health data
(e.g., NATA results, emissions data, population data, etc.) that could be used by EPA,
State and local agencies, and Tribes to implement the strategy developed in
recommendation 2-1.



                                        59
This recommendation calls for the development of a method for identifying and
prioritizing high-risk areas. Identifying areas with an elevated risk resulting from
exposure to air toxics will be difficult given the characteristics of air toxic pollutants,
issues related to air toxic exposure (discussed as a general comment), and the tools and
resources available to estimate exposure and health risks. As a result, any method to
identify high risk areas will no doubt include significant uncertainty. To improve this
recommendation, it should also include some mechanism for evaluating whether the
identified locations truly are areas with elevated risks associated with exposure to air
toxics; this would likely prove very beneficial to the understanding of air toxics exposure
and risks. Examples would be to include concurrent exposure and health studies in some
local-scale monitoring programs. The draft report does mention this concept and
correctly points out that doing so would be expensive and potentially beyond the
resources and scope of the ambient air toxics monitoring program. However, because
this type of information would be very important and informative for EPA's air toxics
program, exploring alternative ways to address the need would be useful. One potential
option could be to simply encourage proposals for local-scale monitoring projects with
co-located exposure and health studies by "rewarding" extra points, but not "penalizing"
projects that do not include such collaborations.

3-1 Develop a communication strategy to inform State and local officials of areas that
may present high health risks from exposure to air toxics and of the opportunity to obtain
funding for monitoring in these areas through EPA's local-scale monitoring program.

OAR works both directly with State, local, and Tribal (S/L/T) entities and through
Regional contacts to help identify and characterize local scale risk issues. The NATA
assessment is an attempt by the agency to identify high risk areas on a very broad scale.
This information is presented on the Agency's website at
http://www.epa.gov/ttn/atw/nata/. OAR is in the process of making improvements to this
website by adding features such as improved questions and answers as well as GIS tools
to help our partners better utilize and understand this information. It is also important to
note that NATA has several limitations and that other tools may also be required to
identify many high risk locations. Such tools may include: local scale assessments,
multi-pathway assessments, monitoring efforts, health issues. Further we are working to
train our S/L/T partners through the development of an Air Toxics Risk Assessment
Reference Library as well as formal risk training classes that include information on how
to both identify as well as communicate health risks. Regarding the communication of
funding opportunities for monitoring in these areas, solicitations for Community Scale
Monitoring project proposals are posted on http://www.fedgrants.gov/; the existence of
new solicitations are communicated from the Program Office to the Regional Offices,
Regional Planning Organizations, STAPPA and ALAPCO, which in turn are
communicated to the appropriate S/L/T entities.




                                         60
3-2 In order to encourage development and refinement of new methodologies retain
the project selection criterion for employing non-routine, advanced monitoring
technologies.

OAR intends to retain the Community Scale Monitoring project selection criterion for
employing non-routine, advanced monitoring technologies.

3-3 Add an additional criterion to the existing local-scale project selection criteria to:

      a.      Address areas where NATA or other risk analyses indicates that the
              population is at increased risk (relative to other areas) of health effects
              from exposure to air toxics.
      b.      Periodically revisit previously monitored locations in order to evaluate
              progress in reducing air toxics emissions.

OAR agrees that further emphasis on areas where NATA or other risk analyses indicates
that the population is at increased risk (relative to other areas) of health effects from
exposure to air toxics is a worthy factor in assessing community-scale monitoring project
proposals. That said, this proposed criterion will be weighed with other proposed
additional criteria and given full consideration for inclusion, as discussed in the response
to Recommendations 2-1 and 2-2. Regarding periodic reassessment of previously
monitored locations to evaluate air toxics emission reduction progress, one of the
National Air Toxics Trends Sites (NATTS) program objectives is to re-evaluate on an on-
going basis the effectiveness of each monitoring site as well as the HAPs monitored.
Also, given the very limited duration of this program to date, this proposed criterion will
be better implemented after a few years of community-scale monitoring projects to
ensure any reassessment activity is meaningful in terms of assessing progress.

3-4      Coordinate with Regional Offices to ensure that information on grant award
status is submitted to the appropriate OAQPS officials.

OAR accepts the recommendation.

4-1   Coordinate with Regional officials and State and local agency NATTS site
operators to ensure that these sites:

     a.       Monitor on 1-in-6 day schedules,
     b.       Monitor for the minimum 6 required pollutants,
     c.       Meet the 85 percent data completeness requirement, and
     d.       Timely input monitoring data into AQS.

OAR proposes that this recommendation be re-worded to read as follows: "Coordinate
with Regional officials and State and local agency NATTS site operators to ensure that
these site operations are consistent with the current Technical Assistance Document
(TAD) in terms of monitoring schedule, required pollutants, data completeness and timely
data submission into AQS." The reason for the proposed revision is to account for




                                         61
any changes that may (and likely will) arise in future updated versions of the TAD. OAR
agrees that we must further the coordination efforts with Regional Offices and, to the
extent appropriate and practicable, with the cognizant State and local agencies to ensure
adherence to the cited monitoring requirements.

4-2 Coordinate with the Regional office program representatives to ensure that the
NATTS site QAPPs sufficiently address all program requirements including the scale of
monitoring being conducted and detailed discussion of laboratory standard operating
procedures.

The grants establishing, operating, and maintaining the NATTS are between State
and local agencies and the EPA Regional Offices; therefore, the principle responsibility
to ensure adherence to the NATTS monitoring requirements must necessarily reside with
the Regional Offices that oversee these grants. That said, OAR accepts the
recommendation.

4-3    Revise NATTS program guidance, including the model QAPP where appropriate,
to:

      a.   More clearly state and explain the desired site characteristic with respect
           to the influence of specific emission sources on air toxins concentrations
           monitored by NATTS sites,
      b.   Include the most recent approved and recommended methods, and
      c.   Identify the number and location of sites to monitor on the regional scale
           in order to assess background and regional transport concentrations.

OAR agrees that NATTS program guidance should be kept current to reflect the most
recent methods updates and improvements. In addition to the model QAPP (referenced
above), the NATTS Program Guidance includes the National Monitoring Strategy Air
Toxics Component, Final Draft July 2004, and the Technical Assistance Document for
the National Ambient Air Toxics Trends and Assessment Program, Draft June 2003
(henceforth referred to as the TAD). The recommended clarifications cited above in sub-
items a and b arc, in fact, well addressed in the TAD (for sub-item a see Section 1.9, and
Section 3.0, pages 2 and 3; for sub-item b see all 207 pages of Section 4). Sub-item c,
"Identify the number and location of sites to monitor on the regional scale in order to
assess background and regional transport concentrations," should be removed from the
recommendation. The number and location of existing NATTS sites are known and will
not be relocated so that they may provide a long term record of priority HAPs
concentrations; further, sites "...to monitor on the regional scale in order to assess
background and regional transport concentrations" are presently operating, namely the
rural sites (see National Monitoring Strategy Air Toxics Component, Section 3.2.1).




                                        62
4-4 Coordinate with the Regional office program representatives to ensure that the
NATTS site grant awards and work plan commitments are consistent with the national
guidance requirements for NATTS.

As stated in the response to Recommendation 4-I, OAR agrees that it must strengthen its
coordination efforts with Regional Offices and, to the extent appropriate and practicable,
with the cognizant State and local agencies to ensure that the NATTS site grant awards
and work plan commitments are consistent with the national guidance requirements for
NATTS. Again, it is important to note that the grants establishing, operating and
maintaining the NATTS sites are between State and local agencies and the EPA Regional
Offices; the principle responsibility to ensure that the NATTS site grant awards and
work plan commitments are consistent with the national guidance requirements for
NATTS must necessarily reside with the Regional Offices that oversee these grants.

5-1 Prioritize the barriers to ambient air toxics monitoring and develop a long-term
strategy and implementation plan for addressing these barriers.

OAR concurs that there are significant barriers to expanding air toxics monitoring
activities at the local, State, and National levels, and that foremost among these are lack of
funding and methodological weaknesses for monitoring certain air toxics. Given the
current environment of fiscal constraint, garnering additional funding, which is the
principle limitation to addressing essentially all other identified barriers,
represents a very substantial challenge.
                                                                                See App endix I - No te
                                                                                3 for OIG Evaluation
OIG Air Toxics Recommendations for Assistant Administrator, ORD

5-2 Consistent with ORD’s plans to address measurement science problems,
coordinate with OAQPS officials to identify key air toxics in need of improved ambient
air monitoring methodologies and incorporate plans for conducting research on
improved methodologies for these key air toxics in ORD 's Air Toxics Research Strategy.

As stated in the general comments, there exists a necessary balance among programmatic
priorities. ORD works with the program offices to balance its research portfolio across
the various needs of the Agency; specific to this recommendation, ORD already works
very closely with OAR to identify air toxics monitoring method needs. For example,
(ORD) is currently working on methodological improvements for two of the three high
priority air toxics identified in Table 5.1 of the OIG report as having methodological
weaknesses (acrolein and 1, 3 butadiene). However, although this recommendation does
not explicitly state that ORD should increase its resource investment in air toxics
methods development, it is implied and the report does call for an increased effort and
emphasis in the "At a Glance" and "Results in Brief' sections. As part of the ORD
planning process, ORD works with the EPA program offices to prioritize research needs
within its media-specific research programs; using this process, OAR has an opportunity
to elevate the relative priority of research supporting air toxics methods development
within the air research budget.




                                         63
                                                      See Appendix I - Note 4 for OIG Evaluation
Specific Comments on Report Content

Page 6, first paragraph: This paragraph addresses other monitoring efforts related to air
toxics monitoring. This paragraph is contained within the section entitled "Existing State
and Local Monitoring". However, some of the monitoring programs listed are not
operated by State and Local agencies (e.g., CASTNET). These monitoring efforts do fit
under the overarching section, "Development of the National Air Toxics Monitoring
Program." Therefore, the first paragraph on page 6 may be more appropriately labeled as
"Other Related Monitoring Efforts."

Page 13, last paragraph: The wording in this paragraph is confusing. The paragraph
states that the report "identified the 10 air toxics that were estimated to present a 1 in
100,000 or greater excess lifetime cancer risks to the most population, and the 10 air
toxics that were estimated to present a 1 in 10,000 or greater excess lifetime cancer risk
to the most population." As written, it seems as though any pollutant that presents 1 in
10,000 or greater risk would also be a pollutant that present the 1 in 100,000 risk, so it is
not clear how each group of air toxics can contain 10 pollutants, i.e., the number of air
totes that present a 1 in 100,000 risk should be greater than the number of air toxics that
present a 1 in 10,000 risk. Also, the phrase "risks to the most population" might be more
clearly described as "risks to the greatest number of people." After studying the charts on
page 14, it appears the wording in the preceding paragraph was attempting to
communicate that the OIG identified the air toxics that presented the greatest risks and
then identified the specific toxics to which the greatest number of people were exposed.
However, as written, this process is not clearly communicated in the paragraph.

Pages 13-15, "Number of Air Toxics of Concern Were Not Monitored": The text states
that there are no monitored data reported in AQS for several of the air toxics presenting
the greatest cancer risks. There are two toxics discussed for which OAR requests that the
OIG add clarifying language to the text. First, POM is a class of compounds that is
represented in air toxics monitoring by the collection and analysis of representative PAHs
- polynuclear aromatic hydrocarbons (e.g., naphthalene, acenaphthene, etc). PAHs are
listed in AQS. We request the text be modified to reflect this clarification. Second, there
are no defined compounds or classes of compounds that represent coke oven emissions
(COE). We request that the text be modified to reflect clarification as to why COE
cannot be found in AQS.

Page 20, last paragraph: The first sentence states "The headquarters official responsible
for managing this program was unable to tell us how many of the proposed local-scale
projects had been awarded." At the time this person was initially contacted, he was new
to the position; after two weeks in his new capacity as program manager, the situation
was remedied. We request the OIG revise the descriptive text to reflect these
circumstances.




                                         64
Page 26, paragraph continued from previous page, last sentence: "The failure to address
the scale of monitoring in the QAPP does not necessarily mean that the monitor was
inappropriately sited." This is a general caveat that should be more centrally mentioned
in the preface where the OIG describes its' approach. The issue is that the QAPP is a
document tat details the data quality system of an environmental operation. Some
QAPPs may have omissions; hence there is an inherent inaccuracy in the OIG approach of
using QAPPs as a surrogate for verifying actual activity.

Page 39, first two paragraphs: These paragraphs identify the barrier that health
benchmarks are not available for certain air toxics. There are health benchmarks for all
33 urban air toxics and for a majority of the 188 air toxics listed in the Clean Air Act.
Some of these benchmarks could be considered outdated and some include a considerable
amount of uncertainty. However, ORD has recently undertaken significant efforts to
improve the Integrated Risk Information System (IRIS) that contains the available EPA
health benchmarks. Furthermore, the process of identifying and prioritizing pollutants
for new or improved health benchmarks in IRIS is performed by EPA Program Offices.
As with the recommendation to increase ORD research efforts for air toxics monitoring
methods, the need for increased research efforts related to developing improved health
benchmarks must be balanced with other research needs of the Agency. OAR has the
ability to increase the relative priority of research to improve air toxic health benchmarks
through the ORD planning process. Finally, the two paragraphs at the top of page 39 also
mention that monitoring data is not very useful to communities without guidelines for
what the data means in terms of health risks. It is very important to note that personal
exposure information is also critical for relating ambient air monitoring data to health
risks (see lst general comment).

Page 39, last sentence: Change "poly Aromatic hydrocarbons" to "polynuclear aromatic
hydrocarbons."

Chapters 2-5: All OAR recommendations call for the Director of OAQPS to take action.
The one recommendation pertaining directly to ORD, which is contained in Chapter 5,
calls for the Assistant Administrator for ORD to take action. It is recommended that, for
consistency, the recommendations for the Director of OAQPS be changed to
recommendations for the OAR Assistant Administrator.

Page 60, last paragraph: Replace "put out" in the first sentence of this paragraph with
"developed."




                                         65
                                                                                        Appendix I

  OIG Evaluation of Agency Response to Draft Report

Note 1 - OIG Evaluation of Agency’s General Comments

   Resource Constraints and Needed Balance. We acknowledge EPA’s need to balance
   resources for research across multiple areas, and have added language to the final report to
   further address this issue.

   Focus on Characterizing High Risk Areas. We are in agreement that ambient monitoring
   should be used in conjunction with other characterization tools (such as models and personal
   monitoring) to more fully characterize air toxics risks.

   Relationship of Personal Exposure, Ambient Concentrations, and Health Risks. We have
   added language to the report further spelling out the limitation of NATA data. We also made
   changes to the report to further clarify that personal exposure to air toxics is not represented by
   ambient monitoring. In addition, as suggested in the Agency response, we added
   Recommendation 2-3 to the final report to address the need for better understanding of the
   relationship of actual personal exposures to ambient concentrations and health risks.
   Notwithstanding its limitations, the NATA risk estimates were the best data available
   identifying where air toxics risks are highest. We believe air toxics risk assessments, such as
   the NATA, could be improved or validated by use of ambient monitoring.

Note 2 - OIG Evaluation of Agency’s Response to Recommendations

   EPA made suggestions to improve several recommendations in our draft report. For example,
   OAR suggested we improve our Recommendation 2-2 by including some mechanism for
   evaluating whether identified locations truly are areas with elevated risks associated with
   exposure to air toxics, which we did in Recommendation 2-3. Our handling of the Agency’s
   suggestions regarding our recommendations is discussed at the end of each chapter.

Note 3 - OIG Evaluation of Agency Response to Air Toxics Recommendations for
         Assistant Administrator, ORD

   We recognize that the ORD and OAQPS participate in a process to identify research needs.
   Given ORD’s recent guidance focusing on measurement research needs, we believe this
   coordination should address measurement research needs when appropriate, and in accordance
   with the recent ORD guidance on this issue.

Note 4 - OIG Evaluation of Agency Specific Comments on Report Content

   The Agency made a number of technical comments on the draft report which we have
   incorporated as appropriate.




                                                66
                                                                               Appendix J

                                    Distribution

EPA Headquarters

Assistant Administrator for Air and Radiation (6101A)
Acting Deputy Assistant Administrator for Science (8105R)
Assistant Administrator for Research and Development (8101R)
Agency Followup Official (the CFO) (2710A)
Agency Followup Coordinator (2724A)
Audit Followup Coordinator, Office of Air and Radiation (6102A)
Audit Followup Coordinator, Office of Research and Development (8102A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Director, Office of Regional Operations (1108A)
Associate Administrator for Public Affairs (1101A)
Director, Office of Air Quality Planning and Standards (C404-04)
Deputy Director, Office of Air Quality Planning and Standards (C404-04)
Director, Emissions Standards Division (C504-03)
Acting Director, Emissions, Monitoring and Analysis Division (C304-02)
Director, Office of Transportation and Air Quality (6401A)
Deputy Director, Office of Transportation and Air Quality (6401A)
Director, National Exposure Research Laboratory (MD-75)
National Exposure Research Laboratory Audit Liaison (MD-343-01)
Audit Liaison, Office of Air Quality Planning and Standards (C404-2)


EPA Regions

Regional Air Program Directors


Office of Inspector General

Inspector General (2410)




                                             67
